<html>
<title> - ARE YOU READY? IMPLEMENTING THE NATIONAL STRATEGY FOR PANDEMIC INFLUENZA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
    ARE YOU READY? IMPLEMENTING THE NATIONAL STRATEGY FOR PANDEMIC 
                               INFLUENZA

=======================================================================

                              FULL HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2006

                               __________

                           Serial No. 109-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
37-063                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, Chairman, Committee on Homeland Security    34
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    35
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the States of California.......................................    32
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................     2
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolian....................................    38
The Honorable John Linder, a Representative in Congress From the 
  State if Georgia...............................................     1
The Honorable Eleanor Holmes-Norton, a Delegate in Congress From 
  the District of Columbia.......................................    51
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    42
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    37

                               WITNESSES

The Honorable John Agwonubi, Assistant Secretary for Health, 
  Department of Health and Human Services:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
The Honorable John Clifford, Deputy Administrator for Veterinary 
  Services, Animal and Plant Health Inspection Service, 
  Department of Agriculture:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
The Honorable Jeffrey W. Runge, Acting Undersecretary, Science 
  and Technology and Chief Medial Officer, Department of Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Peter F. Verga, Deputy Assistant Secretary of 
  Defense for Homeland Defense, Department of Defense:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24


                       ARE WE READY? IMPLEMENTING
                        THE NATIONAL STRATEGY OR
                           PANDEMIC INFLUENZA

                              ----------                              


                         Tuesday, May 16, 2006

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:00 p.m., in Room 
345, Cannon House Office Building, Hon. John Linder presiding.
    Present: Representatives King, Linder, Simmons, Rogers, 
Dicks, DeFazio, <plus-minus>Norton, Christensen, and Etheridge.
    Mr. Linder. The hearing ``Are We Ready? Implementing the 
National Strategy for Pandemic Influenza,'' will come to order. 
I would like to thank all of our distinguished panel witnesses 
for appearing today in this hearing for the Committee on 
Homeland Security. We are here today to examine the long-
awaited implementation plan for the President's national 
strategy on pandemic influenza and assess our state of 
readiness should a pandemic become reality.
    ABC movies should not be the only source of information on 
this topic. The leaders we have in the room here today must 
separate fact from fiction for the American people. Sensational 
portrayals in the media risk creating unnecessary panic and 
must be balanced by solid and consistent information from 
government leaders. We must provide a meaningful guide for all 
Americans who ask, what should I be doing to prepare for 
pandemic flu?
    In February, the Subcommittee for Prevention of Nuclear and 
Biological Attack, which I chair, and the Subcommittee on 
Emergency Preparedness, Science and Technology held a joint 
hearing examining the nature of the pandemic threat as 
perceived through the eyes of those on the ground who will be 
called upon to respond. It was clear that they were looking for 
more universal guidance from the Federal level. Although the 
possibility of when the next pandemic may occur is unknown, 
what is clear is that, based on history, we are overdue for an 
influenza pandemic.
    As the pandemic of 1918 showed, the effects could be 
dramatic. The United States, like most of the rest of the 
world, was gripped with a horrific pandemic of Spanish 
influenza, but that was nearly 90 years ago. Our medical and 
public health system were rudimentary when compared to today. 
There was no vaccine for influenza. There were no antibiotics 
to counter the effects of flu.
    Today, we have an advanced medical system and a stronger 
public health system and pharmacological treatments 
unimaginable in 1918, but we still have to do more. We need to 
make sure that every American can answer the question: I know 
what to do if and when influenza strikes. We need the 
government leaders to be able to answer that same question.
    Does each government agency know what to do if and when 
influenza strikes? The Federal Government needs to be able to 
definitively answer the question, who is in charge? We need to 
be able to answer questions such as, who will the American 
people turn to for guidance? Who will get vaccinated first? And 
the inevitable question, what should I do if I get sick?
    The effects of a pandemic could be devastating on our 
economy. A recent release from HHS stated that up to 40 percent 
of a business organization's workforce could be out sick or 
taking care of sick family members. We need to make sure that 
the Federal Government is providing real world guidance to our 
business community as well.
    The pillars that are laid out in the President's 
implementation plan are a good start. We need to ensure plans 
are being made for a potential pandemic everywhere, and what 
every American should be doing, and how the Federal Government 
will help them. Communication of rules and responsibility is 
very important. We need to have the most effective surveillance 
tools to detect possible outbreaks, and we must be able to 
quickly respond and hopefully contain the spread of any 
outbreak.
    I look forward to the testimony of our witnesses as they 
lay out their respective roles for preparing for potential 
pandemic. We need to be able to separate fact from fiction and 
make the public more confident that we will be ready in the 
case of a influenza pandemic. I now turn to my friend from 
Washington, Mr. Dicks, for the purpose of making an opening 
statement.
    Mr. Dicks. Thank you, Mr. Chairman.
    I would like to welcome our witnesses today, and I look 
forward to hearing their testimony. I am very pleased that the 
committee is holding a hearing on the important issue of 
pandemic flu preparedness and response. The witness before us 
today represents the key Federal agencies that will be involved 
in responding to a pandemic flu outbreak. In a full-scale 
pandemic situation, Federal, State, local and private entities 
will all need to cooperate effectively for a response to be 
successful. The thousands of State and local health departments 
are working hard to plan for pandemic flu, but they are 
struggling with a lack of money and guidance from the Federal 
Government.
    In the President's National Strategy for Pandemic 
Influenza, the bulk of Federal funding is for vaccine and drug 
research. The President requested only $100 million for State 
and local preparedness. While Congress appropriated $350 
million in the emergency appropriations this past December, it 
pales in comparison to the $6 billion that the President 
requested for vaccines and antivirals.
    I believe that the best way to handle the flu is to 
strengthen our hospitals and other health care facilities, and 
I don't think enough funding or aid is being offered to State 
and localities. I am also concerned that the flu response plan 
that we will discuss today might not complement the National 
Response Plan, which is supposed to be the plan used to manage 
domestic emergencies.
    We have many questions to answer. Who is in charge of 
response operations at Federal, State and local levels? Who 
gets vaccinated first? When should we urge citizens to wear 
masks or to stay home? When should we close schools? How will 
hospitals manage the surge of patients?
    As I have spoken in recent months to local physicians, 
hospitals administrators and public health officials and first 
responders, it has become clear to me that we do not yet have 
the answers to some of these questions. I hope this hearing 
will help us begin to answer them.
    We cannot be certain how long we have before a full-scale 
outbreak of avian flu may occur. In that time, we must ensure 
that a coherent nationwide response is ready, and that it will 
be properly executed when needed.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you, we are pleased to have before us a 
distinguished panel of witnesses on this important topic. Let 
me remind the witnesses that their entire written statement 
will appear in the record. We would ask, however, that all 
witnesses make an effort to limit their testimony to no more 
than 5 minutes.
    Mr. Linder. First up is Dr. Jeff Runge. Dr. Runge is the 
Acting Undersecretary for Science and Technology and is DHS's 
Chief Medical Officer. He is a punt person at the DHS for 
pandemic flu preparedness planning.
    Admiral John Agwunobi, Dr. John Agwunobi, is the Assistant 
Secretary of Health for the Department of Health and Human 
Services. He is an experienced practitioner in public health 
and is a former State health officer in Florida.
    From the Department of Agriculture, we have Dr. John 
Clifford. Dr. Clifford is the chief veterinarian for USDA and 
has extensive experience in the veterinary medicine field, 
including being the area veterinarian in charge of Ohio, West 
Virginia, Michigan and Indiana.
    Mr. Peter Verga from DOD is the Principal Deputy Assistant 
Secretary for Homeland Defense. He is a retired U.S. Army 
officer with 26 years of experience and has held a variety of 
senior level positions at the Department of Defense.
    Dr. Runge, you may begin.

  STATEMENT OF HON. JEFFREY W. RUNGE, ACTING UNDERSECRETARY, 
 SCIENCE AND TECHNOLOGY, AND CHIEF MEDICAL OFFICER, DEPARTMENT 
                      OF HOMELAND SECURITY

    Dr. Runge. Thank you, Chairman Linder, Congressman Dicks 
and members of the committee. My name is Jeff Runge. I serve as 
Chief Medical Officer for the Department of Homeland Security. 
I am pleased to be here with my colleagues to discuss the role 
of DHS as the overall incident manager and coordinator of the 
Federal response in the event of a influenza pandemic.
    We are working closely with our Federal partners, 
especially at HHS, USDA and the Department of Veterans Affairs 
and the Department of Defense and the Homeland Security Council 
to assure that we are fully coordinated in our response to a 
pandemic. We are all in agreement about our roles in managing 
an outbreak of disease, whether it is an outbreak confined to 
the bird population or in the event of a full-scale human 
pandemic.
    Even though we recognize the need to be ready at the 
Federal level, preparedness for an incident such as this must 
be defined at the local level. We have stood shoulder to 
shoulder with our colleagues from HHS and USDA in nearly 50 
State pandemic sessions discussing the need to work together 
with State and local governments, nongovernmental organizations 
and the private sector to ensure a condition of readiness.
    As you know, the mechanism for coordination of any broad 
Federal response is the National Response Plan. The NRP 
supports the concept that incidents are handled at the lowest 
jurisdictional level, even as it provides the mechanism for a 
concerted national effort.
    In the event we are faced with a pandemic, Secretary 
Chertoff would activate a national planning element composed of 
senior officials of Federal relevant agencies who have already 
been identified to coordinate strategic level national planning 
and operations. The Secretary would also likely establish as 
many as five regional joint field offices with a deputy PFO in 
charge of each regional joint field office to work directly 
with State and local entities.
    Now this framework provides a coordinated response for all 
levels of government, nongovernment and volunteer organizations 
and the private sector. It also affords full coordination 
between the regional joint field offices and any military joint 
task forces that might be established.
    Obviously, a close synchronous working relationship with 
HHS is essential. Our national public health and medical 
resources will unquestionably be taxed, probably beyond 
capacity, and DHS will do everything in its power to support 
HHS with its mission.
    As the DHS Chief Medical Officer, I am and will be the 
primary point of interface with HHS, as well as being Secretary 
Chertoff's advisor on all medical issues. The implementation 
plan contains over 300 action items with very aggressive 
timelines. DHS has the lead in 58 of those actions and 
participates with other departments in another 84.
    We are currently prioritizing these actions and are 
searching for the resources that we need to carry them out. As 
the committee understands, the Department has many competing 
priorities right now, but we are fully engaged in making sure 
we are as prepared as we can be for a pandemic.
    In addition to our job as the overall incident manager, DHS 
has some areas of unique responsibility, and in particular, to 
maintain the function of our nation's critical infrastructures, 
for border management and for the continuity of DHS operations. 
We are also working on identifying and managing the economic 
consequences to our Nation from a pandemic with a special focus 
on the transportation industry, the flow of trade within and 
across borders and a supply chain for food and other goods.
    Mr. Chairman, with any illness, prevention is by far the 
most effective method for managing this disease. President Bush 
and HHS are on the mark in their efforts to improve our 
domestic vaccine production and to stimulate transformational 
change in vaccine technology. We also need to reinforce the 
capacity of State and local public health organizations and 
educate the public on good public health practices.
    Mr. Chairman, I would also like to make the point that the 
best way to prepare for a catastrophic event of any nature is 
to strengthen the institutions that we use every day; namely, 
public health, medical and emergency services. The collateral 
benefits that provides will improve our Nation's quality of 
life as well as our preparedness for what we all fear, a 
biologic attack of any consequence, of any source.
    Mr. Chairman, you have my written remarks for the record. I 
thank you.
    [The statement of Dr. Runge follows:]

            Prepared Statement of Hon. Jeffrey W. Runge, MD

    Good afternoon Chairman King, Congressman Thompson and Members of 
the Committee on Homeland Security.n I am pleased to have this 
opportunity to appear before you today to discuss the current threat 
from Avian Influenza and how the Department of Homeland Security (DHS) 
will coordinate the Federal response if an influenza pandemic were to 
occur in the United States.
    Like members of this Committee, the Department of Homeland Security 
and our Federal partners recognize that an influenza pandemic in the 
United States could trigger severe public health and economic 
consequences, catastrophic loss of life, and disrupt our nation's 
critical infrastructures. DHS is working closely with its Federal 
partners, especially the Department of Health and Human Services (HHS), 
the U.S. Department of Agriculture (USDA), the Veterans Administration 
(VA), the Department of Defense (DOD), and the Homeland Security 
Council to prepare and to ensure that we are coordinated in our 
response.

The Role of DHS
    As we coordinate, we recognize that each Department has 
responsibilities that are unique as well as some responsibilities that 
overlap. The DHS responsibilities are clear, pursuant to the Homeland 
Security Act of 2002 and Homeland Security Presidential Directive-5 
(HSPD-5). As the domestic incident manager, the Secretary of DHS will 
coordinate the overall Federal response to a pandemic in order to 
ensure the continuity of our government, maintain civil order, preserve 
the functioning of society and mitigate the consequences of a pandemic. 
The Secretary of DHS serves as the principal Federal official for 
overall domestic incident management. In this role, during a pandemic 
outbreak, the Secretary of Homeland Security is responsible for the 
coordination of Federal operations and/or resources, establishment of 
reporting requirements, and conduct of ongoing communications with 
Federal, State, local, tribal, private sector, and nongovernmental 
organizations.
    Our Federal partners are also quite capable of fulfilling their 
respective roles in managing outbreaks of avian influenza, from well 
confined outbreaks in birds to a full-scale pandemic, and we are fully 
coordinated with them. The USDA, working with its state agriculture 
counterparts, has ample experience in managing an outbreak in the bird 
population. HHS has the responsibility and expertise to plan public 
health and medical preparedness. We all recognize that there is still 
significant work to be done to ensure the Nation is adequately prepared 
to respond to an outbreak in humans. As the National Strategy for 
Pandemic Influenza says, ``Preparing for a pandemic requires the 
leveraging of all instruments of national power, and coordinated action 
by all segments of government and society.'' This need for coordination 
of our National instruments is part of the reason that DHS exists. A 
pandemic could threaten the ability of the health and medical sector to 
manage all the consequences, which could likewise threaten the 
functioning of society and the Nation's economy. It is the 
responsibility of DHS to coordinate the Federal response to manage 
those risks.
    The NRP is the primary mechanism for coordination of the U.S. 
Government response to terrorist attacks, major disasters and other 
emergencies, and will form the basis of the Federal pandemic response. 
If a pandemic influenza were to present grave social and economic 
problems for the United States, the Secretary would--in consultation 
with other cabinet members and the President--likely declare an 
Incident of National Significance and ensure implementation of the 
appropriate NRP coordinating mechanisms to ensure a coordinated Federal 
response.
    The NRP supports the concept that incidents are handled at the 
lowest jurisdictional level. However, a pandemic will ultimately 
require a concerted national effort. Under the National Strategy and 
the NRP, Federal departments and agencies have assigned roles and 
responsibilities to support all incidents to include a biological 
incident.
    The Secretary will consider the following four criteria set forth 
in HSPD-5 when making the determination to declare an Incident of 
National Significance; however, he will not be limited to these 
thresholds and may base his decision on other applicable factors:
        <bullet> A Federal department or agency acting under its own 
        authority has requested the assistance of the Secretary of 
        Homeland Security
        <bullet> The resources of State and local authorities are 
        overwhelmed and Federal assistance has been requested by the 
        appropriate State and local authorities
        <bullet> More than one Federal department or agency has become 
        substantially involved in responding to an incident, and
        <bullet> The Secretary of Homeland Security has been directed 
        to assume responsibility for managing a domestic incident by 
        the President.
    DHS will work collectively with the interagency to establish the 
appropriate multi-agency coordinating structures when the situation 
warrants, even before a full scale outbreak. The Secretary may consider 
activating elements of the national response, including designating a 
Principal Federal Official, standing up the Joint Information Center 
and Joint Field Offices. The Secretary has already identified a 
candidate to become the national PFO for pandemic influenza. This 
individual will be intimately involved in the planning and exercising 
of our contingency plans.
    The Secretary would also set up a national planning element 
composed of senior officials of relevant Federal agencies to coordinate 
strategic-level national planning. The Secretary would also likely 
establish as many as five Regional Joint Field Offices that would be 
staffed and resourced with a Deputy PFO in charge of each Regional JFO 
to work directly with state & local entities. This framework provides a 
coordinated response for all level of government, non-government and 
volunteer organizations (NGOs), and the private sector. This system 
also affords full coordination between the regional joint field offices 
and military joint task forces that may be established. Last month, 
Secretary Chertoff asked his fellow Cabinet members to identify senior 
officials to coordinate planning and operations among the Federal 
departments before a pandemic would strike. The list has been compiled, 
and we look forward to working with these individuals as we plan and 
train together with our pre-designated PFO and Deputy PFOs.
    In the event of a pandemic, a close, synchronous working 
relationship with HHS is essential. Our national Public Health and 
medical resources will unquestionably be taxed, probably beyond 
capacity, and DHS will do everything in its power to assist HHS with 
its mission to prevent illness and mitigate the consequences of the 
anticipated widespread morbidity and mortality. The DHS Chief Medical 
Officer is the primary point of interface with HHS and is responsible 
for advising the Secretary of DHS on all medical issues, including 
avian influenza. The DHS Chief Medical Officer is also responsible for 
directing and overseeing the planning, policy, training, and operations 
to protect the health of the DHS workforce in the event of a pandemic 
in order to maintain critical DHS operations. We are taking advantage 
of assets across the Department to accomplish this goal, especially the 
expertise of the U.S. Coast Guard medical officers.

Federal Preparedness for Pandemic Influenza
    The National Strategy for Pandemic Influenza, issued by President 
Bush on November 1, 2005, provides the framework for the Federal 
government's response to the influenza pandemic threat. It presents a 
high-level overview of the Federal government's approach to an 
influenza pandemic, emphasizes the importance of the full participation 
of State Local, and Tribal Governments, the private sector and critical 
infrastructure components, the public, and the international community 
to prepare for, prevent, and contain influenza.
    The National Strategy makes it clear that while the Federal 
government will pursue all avenues available to it to thwart an 
influenza pandemic, it is essential for the States and communities be 
fully informed and engaged as well. The resources of the Federal 
government alone may not be sufficient to prevent the spread of an 
influenza pandemic across the nation. Preventing, minimizing and 
mitigating the consequences of an influenza pandemic requires a 
coordinated and integrated national effort that includes the full 
participation of all levels of government and all segments of society.
    The Implementation Plan for the National Strategy announced last 
week contains over 300 action items with very aggressive implementation 
timelines. DHS has the lead in 58 of these actions and participates 
with other departments in 84 additional items. The Department is 
currently prioritizing these actions and is attempting to identify 
resources to carry them out. The department has many competing 
priorities, but is fully engaged in planning efforts for our own 
departmental plans as well as fulfilling our responsibilities 
enumerated in the Implementation Plan.
    While the Plan directs that departments and agencies undertake a 
series of action in support of the Strategy, it does not describe the 
operational details of how the departments will accomplish these 
objectives. Each department will devise its own planning documents that 
will operationalize the Implementation Plan and will address additional 
planning considerations that may be unique to each department.

The DHS Pandemic Influenza Implementation Plan
    The DHS Pandemic Influenza Plan is structured around the three 
pillars of the National Strategy: Preparedness and Communication, 
Surveillance and Detection, Response and Containment. In order to 
support these pillars, the DHS plan focuses on the overall Federal 
incident management of a pandemic, as well as our unique 
responsibilities to manage our borders, protect our Nation's critical 
infrastructures, ensure the health and safety of the DHS workforce, and 
find ways to mitigate the overall economic impact tour Nation.
    Since December, DHS work groups comprised of representatives from 
across all components of the Department have been working to accomplish 
these goals and have been developing contingency planning documents. 
The DHS Office of Infrastructure Protection has developed plans and 
exercises to maintain the function of the 17 critical infrastructures, 
working closely with the private sector and our Federal partners. In 
conjunction with its interagency partners, the Department will release 
a Critical Infrastructure and Key Resource Pandemic Influenza 
Preparedness, Response and Recovery Guide. This guide will assist the 
private sector in business continuity planning efforts to cope with 
business disruption and high rates of employee absenteeism that would 
accompany a pandemic. Our overall incident management workgroup is 
developing playbooks with the directorates and components of DHS, and 
has focused efforts on synchronizing operation centers from across 
Federal and State governments and developing a common operating picture 
methodology so that real-time communications are optimized. The 
workgroup on Entry and Exit Policy and Border Management has been 
working very closely with our Federal partners and the Homeland 
Security Council to determine the best policy to delay and limit the 
introduction of a pandemic into the U.S. through effective screening of 
passengers, travel restrictions and border controls, supporting the 
CDC's quarantine stations at our major point of entries, and providing 
training to our front line workforce. The Workforce Assurance workgroup 
has been working closely with the CDC and the Occupational Safety & 
Health Administration to devise scientifically sound policies for 
personal protective equipment and training protocols to minimize 
disruption to our workforce. They have also been developing contingency 
planning for Continuity of Government and Continuity of Operations to 
deal with disruptions in our workforce due to absenteeism or caring for 
loved ones. The Economic Consequences workgroup has been working with 
Federal partners and the National Laboratories to identify and 
inventory the economic modeling capacity in order to drive policy 
decisions that would minimize economic disruption to our nation during 
a pandemic. Examples are policies related to transportation industry, 
the flow of trade within and across borders, and maintenance of the 
supply chain for food and other goods.

DHS Expenditures: Pandemic Preparedness
    As part of the President's supplemental appropriations request to 
fund the National Strategy for Pandemic Influenza, DHS received $47.3 
million to increase the readiness and response capabilities of the 
department in the event of an influenza pandemic. The Supplemental 
Funding Plan allocates funds in six key categories that include:
        <bullet> Preparedness Planning: The Plan targets $12 million in 
        funding for preparedness planning. This effort is aimed at 
        preparing for the significant implications that a pandemic 
        influenza would have on the economy, national security and the 
        basic functioning of society. It includes developing the 
        capability to anticipate the impact of the disease on 
        absenteeism across multiple sectors and how this will affect 
        the continuity of essential functions in support of the Federal 
        response. Conducting modeling and simulation to predict the 
        impact of pandemic flu on critical infrastructure; engaging in 
        international negotiations for screening protocols, procedures 
        and quarantine authorities; and participating exercises to test 
        readiness are part of this effort.
        <bullet> Training Development and Deployment: The Plan calls 
        for $10.7 million to be allocated for the protection of border 
        and domestic air and maritime travel. These funds will be used 
        for readiness assessments of high risk airports and ports and 
        training related to the use of quarantine stations and the 
        isolation, handling, and transportation of potentially infected 
        individuals. The experience of HHS and CDC training exercises 
        will add value to DHS training activities, which will involve 
        personnel of the U.S. Coast Guard, Immigration and Customs 
        Enforcement, Transportation Security Administration, and 
        Customs and Border Protection.
        <bullet> Personal Protective Equipment (PPE): The Plan sets 
        aside $16 million for the acquisition of PPE for approximately 
        145,000 high risk and mission critical personnel. DHS will 
        develop the requirements to provide these personnel with 
        appropriate PPE and establish respiratory protection programs, 
        which include respiratory fit testing, medical clearance and 
        PPE related training.
        <bullet> Rapid Influenza Assay Study: The Plan provides $1.5 
        million to support system studies and define operational 
        requirements for a rapid diagnostic tests, working in 
        coordination with HHS. This test could provide more effective 
        screening prior to departure and entry, especially in 
        situations when infected persons may require isolation. This 
        could have broader applications in the transportation sector, 
        the workplace, or for continuity of government purposes.
        <bullet> Isolation Systems: The Plan dedicates $4.4 million to 
        support infrastructure changes and construction of isolation 
        systems at ports of entry or other major transportation hubs. 
        Currently the CDC has only 18 quarantine stations among over 
        320 ports of entry, few of which have adequate facilities for 
        isolation and containment of infected travelers.
        <bullet> Program Support: The Plan allocates $2.7 million for 
        technical, management, financial, and integration functions 
        relating to the implementation of the Plan. This includes the 
        coordination of requirements from DHS components for workforce 
        protection, environment, training, staffing restrictions and 
        protocols as well as documentation and tracking of requirements 
        and plans.

Conclusion
    Since the reorganization of DHS under Secretary Chertoff's 2nd 
Stage Review and the formation of the Office of the Chief Medical 
Officer, a tremendous amount of our focus has been on pandemic 
influenza planning, supplemental budget development and coordination, 
coordinating with other Federal agencies on policy matters, and 
participating in the writing of the Implementation Plan. DHS senior 
officials have been present with HHS at nearly every one of the 50 
State Pandemic Summits.
    The Department of Homeland Security is in the process of making 
recommendations to further clarify the National Response Plan to better 
fulfill its incident management role. In collaboration with our 
international partners, we are developing screening and containment 
procedures to decrease the likelihood of disease spread should 
sustained human-to-human transmission occur. We have been working with 
our federal government and private sector colleagues to provide 
business continuity guidance and recommendations, especially for 
critical infrastructure and key resources. Our own plan addresses 
workforce protection and continuity of operations.
    The challenge to complete an effective contingency plan for DHS and 
realize an appropriate response to such a catastrophic incident is 
formidable. Carrying out the hundreds of actions in the Implementation 
Plan will require significant amounts of time, human resources, and 
budgetary resources. Even with the challenges, this effort will be 
worth it for the sake of our Nation's biodefense. It has become 
apparent that the newly found coordination among State, local and 
tribal governments, HHS, DHS, USDA, VA, and DoD, NGOs and the private 
sector will put our Nation in much better shape to deal with biological 
threats, regardless of whether they are natural or man made. The 
collateral benefits of pandemic planning are undeniable and are worth 
our department's best efforts and full engagement.
    As with any illness, prevention is by far the most cost effective 
method for dealing with this disease. We fully support the efforts of 
President Bush and the Department of Health and Human Services to 
reinvigorate our domestic vaccine production, to stimulate 
transformational change in vaccine technology, reinforce the capacity 
of State and Local public health organizations and educate the public 
on good public health and ways to keep every individual and family 
safe.
    The best way to prepare for and prevent a pandemic or any major 
catastrophic event is to strengthen the institutions that we use every 
day, namely public health, medical, and emergency services, as well as 
the support of medical science for new vaccines and therapeutics. They 
are also avenues to enhancing the quality of health care and the 
quality of life in our communities on a daily basis. We look forward to 
working with Congress as well as our State and local counterparts to 
ensure that the response is as efficient and effective as it can be.

    Mr. Linder. Thank you, Dr. Runge.
    Dr. Agwunobi.

STATEMENT OF HON. JOHN AGWUNOBI, ASSISTANT SECRETARY FOR HEALTH 
  AND HUMAN SERVICES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Agwunobi. Thank you, Mr. Chairman, and members of the 
committee for this opportunity to speak to you on what is a 
critically important subject, pandemic influenza preparedness. 
Pandemics are a fact of life. They have occurred numerous times 
in the past, and they will likely occur in the future.
    Our ultimate goal must therefore be to achieve a constant 
yet flexible state of national preparedness, an enduring 
national ethic of readiness for any and all hazards. If the 
next pandemic is anything like the one that we saw in 1918, I 
know of no nation that can credibly claim to be ready today. 
Much work remains to be done.
    Fortunately, some recent modeling shows that with 
aggressive nationwide preparedness, exercised readiness and 
unhesitant leadership when the alarm sounds, we can manage our 
way through a pandemic and greatly reduce its negative impact 
on individuals and our community. We will continue to 
strengthen our plans as we learn more as science provides us 
with information into the future.
    In November of 2005, the President released the National 
Strategy for Pandemic Influenza and requested $7.1 billion to 
fund that strategy; $3.8 billion has already been appropriated, 
so improvements to our preparedness are well under way. This 
month, the administration released a detailed implementation 
plan which delineates 300 specific critical preparedness tasks 
for government and the private sector. That implementation plan 
identifies HHS very clearly as lead for public health and 
medical aspects of preparedness and response in a pandemic. We 
will work very closely with our colleagues in DHS in that 
regard.
    Our efforts to date include stockpiling vaccines, building 
additional capacity and researching the vast technology for 
vaccine development and manufacturing. Similarly, we are 
stockpiling antiviral drugs and searching for new and improved 
antiviral alternatives. We are working to further the search 
for rapid, accurate, yet portable diagnostic tests, and we are 
stockpiling other necessary medical supplies.
    But, Mr. Chairman, vaccines and antiviral countermeasures 
don't in and of themselves equal preparedness. Our goal to 
achieve true readiness must include and does include intra- and 
interagency collaboration across this panel and other agencies, 
our horizontal and vertical coordination across public health 
and medical communities around the Nation, and the continued 
strengthening of search capacity across the Nation.
    We are also working to enhance surveillance capabilities, 
the preparation of families and individuals, the development of 
clear and open risk communication strategies, the improvement 
of State and local planning and regular exercising of those 
plans. At the global level, our efforts include the 
strengthening of international public health partnerships and 
cooperation, the strengthening of global surveillance for 
pandemics and the enhancement of the international ability to 
rapidly respond and its capacity.
    In conclusion, Mr. Chairman, preparedness is not an 
accomplishment. It is a constant endeavor. It consists of 
Federal, State and local leaders working in partnership 
nationwide. Every sector of society, every individual and every 
community must do their part for us to stand as a Nation 
prepared.
    Pandemic preparedness makes the Nation better prepared for 
any and all hazards, it is not just about pandemic influenza. 
It will help in both manmade and natural events.
    We are better prepared today than we were yesterday, that 
is for sure, and we will be better prepared tomorrow than we 
are today.
    Thank you, Mr. Chairman.
    [The statement of Dr. Agwunobi follows:]

              Prepared Statement of John O. Agwunobi, M.D.

    Mr. Chairman and members of the Committee, I am honored to be here 
today to describe for you how the Department of Health and Human 
Services (HHS) is working to improve the nation's preparedness for a 
potential human influenza pandemic. Thank you for the invitation to 
testify on this issue, which is one of our highest priorities at 
HHS.Strategy and Threat Assessment
    On November 1, 2005, President Bush released the National Strategy 
for Pandemic Influenza, which outlines the roles of the Federal 
government and sets expectations for State, local, and tribal 
governments, private and international partners, and individual 
citizens in preparing for and responding to an influenza pandemic. The 
following day, Secretary Leavitt announced the HHS Pandemic Influenza 
Plan-a blueprint for all HHS pandemic influenza preparedness and 
response planning. The HHS Plan provides guidance to national, State, 
and local policy makers and health departments with the goal of 
achieving national readiness and the ability to respond quickly and 
effectively to a pandemic. The HHS plan also includes an outline of key 
HHS roles and responsibilities during a pandemic. In the event of a 
pandemic, under the National Response Plan, HHS will lead the public 
health and medical response with the Department of Homeland Security 
carrying out its responsibility for overall domestic incident 
management and Federal coordination. However, ultimately, the center of 
gravity for such a response will be at the state and local level.
    As you know, the President requested $7.1 billion in emergency 
funding for the National Strategy for Pandemic Influenza, of which $6.7 
billion was requested for HHS. Congress appropriated $3.8 billion as 
the first installment of the President's request to begin these 
priority activities, and of this amount, $3.3 billion was provided to 
HHS. We appreciate the action of Congress on this appropriation as it 
takes us an essential step forward to becoming the first generation in 
history to be prepared for a possible pandemic.
    We must also continue to prepare against a possible pandemic 
influenza outbreak. The President's Budget includes $2.3 billion in 
funding for the 2007 portion of the emergency funding request to 
fulfill the next phase of the Strategy. It is vital that this funding 
be allocated in the most effective manner possible to achieve our 
preparedness goals, including producing pandemic influenza vaccine for 
every American within six months of detection of sustained human-to-
human transmission of bird flu virus; ensuring access to enough 
antiviral treatment courses sufficient for 25 percent of the U.S. 
population; and enhancing Federal, state and local as well as 
international public health infrastructure and preparedness.
    The President's FY 2007 budget also requests more than $350 million 
for important ongoing pandemic influenza activities at HHS such as 
safeguarding the Nation's food supply (FDA), global disease 
surveillance (CDC), and accelerating the development of vaccines, 
drugs, and diagnostics (NIH).
    Pandemics are not new. There were three in the 20th century, the 
worst of which was the Spanish flu epidemic in 1918-1919 that is 
estimated to have killed over one half million people in the U.S. and 
50 million worldwide. While we are focusing today on the impact of the 
H5N1 avian flu virus from a strain currently circulating in birds in 
many parts of Asia and Europe, many of the policy issues and 
preparedness measures that arise for this strain of influenza apply as 
well to pandemics of other types of influenza, other emerging 
infectious disease outbreaks and public health emergencies. For 
example, pandemic preparedness offers tangible benefits in the fight 
against seasonal influenza which causes an average of 36,000 deaths 
each year.
    Scientists cannot accurately predict the severity and impact of an 
influenza pandemic, whether from the H5N1 virus or the emergence of 
another influenza virus of pandemic potential. However, it is still 
useful to model possible scenarios based on analysis of past pandemics. 
In a report released in December 2005, the Congressional Budget Office 
presented the results of modeling a severe pandemic scenario similar to 
the 1918 Spanish flu outbreak and a more moderate outbreak resembling 
the flu pandemics of 1957 and 1968. In the severe scenario, roughly 90 
million people become ill and 2 million die in the United States and 
the impact on the real Gross Domestic Product [GDP] is about a 5 
percent reduction in the year following the outbreak. While there is 
substantial uncertainty associated with these estimates, they 
illustrate the enormous public health threat of an influenza pandemic 
and the need for effective access to vaccines, treatments, and a robust 
public health infrastructure to meet the challenge.

    There are several important points to note about an influenza 
pandemic:
        <bullet> A pandemic could occur anytime during the year and is 
        unlikely to behave like a typical seasonal influenza. Rather, 
        past pandemics have occurred in multiple "waves" of infection 
        and could persist in the world for over a year.
        <bullet> In the absence of effective vaccines and antivirals, 
        the capacity to prevent or control transmission of the virus 
        once it gains the ability to be efficiently transmitted from 
        person to person will be limited.
        <bullet> Right now, the H5N1 avian influenza strain that is 
        circulating in Asia and Europe among birds is a significant 
        concern, but there is no way to know whether this virus will in 
        fact lead to a human pandemic. Whether of not the H5N1 adapts 
        itself to the human host, we know that influenza viruses are 
        constantly evolving, and it is possible that this strain or 
        another influenza virus, which could originate anywhere in the 
        world, could cause the next pandemic. This uncertainty is one 
        of the reasons why we need to maintain year-round surveillance 
        of influenza viruses to be able to determine if there are 
        genetic changes that may signal a potential pandemic, to 
        develop reference viruses that can be used to develop pandemic 
        vaccines, and to assess whether influenza viruses have 
        developed resistance to antiviral drugs. As is the case with 
        the H5N1 that is currently in birds around the world, pandemic 
        influenza viruses often emerge in animals. Like other viruses, 
        they tend to remain within a species. However, as we have seen 
        already in the more than 200 documented cases of human 
        infection of H5N1 confirmed by the World Health Organization, 
        they do have the ability to infect humans who have been exposed 
        to infected birds. Of greatest concern for human health is the 
        question of whether the viruses will develop the ability to 
        readily infect people and whether these viruses will be able to 
        transmit efficiently from person to person as is the case with 
        seasonal flu. For all of these reasons, it is critical to 
        maintain constant surveillance of viruses worldwide affecting 
        animal populations and that can potentially be transmitted to 
        humans.
        <bullet> We often look to history in an effort to understand 
        the impact that a new pandemic might have, and how to intervene 
        most effectively. However, there have been many changes in 
        society since the ``great influenza'' of 1918, including 
        dramatic changes in population and social structures, medical 
        and technological advances, and a significant increase in 
        international travel. Some of these changes have increased our 
        ability to plan for and respond to pandemics, but other changes 
        may have made us more vulnerable.

HHS Preparations for Pandemic Influenza
    As you know, the President announced the Implementation Plan for 
the National Strategy for Pandemic Influenza on May 3, 2006. The 
purpose of this plan is to ensure that the efforts and resources of the 
Federal government and State, local and tribal governments and the 
private sector will be brought to bear in a coordinated manner against 
the pandemic threat. The Plan describes more than 300 critical actions, 
many of which have already been initiated, to address the threat of 
pandemic influenza. The Implementation Plan for the National Strategy 
for Pandemic Influenza confirms HHS' role as the lead federal agency 
for the public health and medical preparation and planning for and 
response to a pandemic. The Secretary of HHS will lead the Federal 
health and medical response efforts, serve as the primary Federal 
spokesperson for pandemic health issues, and coordinate the actions of 
other departments and agencies in the overall public health and medical 
emergency response efforts. The Secretary of the Department of Homeland 
Security (DHS) will provide broader overall incident management for the 
Federal response, will ensure necessary support to HHS to coordinate 
the public health response, and coordinate with HHS and other Federal, 
State, and tribal agencies in providing non-medical support.The timing 
of the release of this Plan does not signal that a pandemic is 
imminent. The Plan is the result of much work in many Federal 
Departments and agencies to further prepare the government for a 
pandemic, whenever it might occur. It is important to note that the 
H5N1 avian influenza is a disease of birds, the virus has not yet 
appeared in the U.S., and there is no influenza pandemic in the world 
at this time.
    HHS has been working with many Federal agencies, including the U.S. 
Department of Agriculture, the Departments of Homeland Security, State 
and others, in drafting the public health and medical aspects of the 
Implementation Plan for the National Strategy. The Plan spells out over 
199 specific tasks that HHS will take the lead in or play a supporting 
role in to accomplish the human health aspects of the strategy. It is 
important to note that HHS has already started to make progress on many 
of the tasks delineated in the plan.

    The Department's key tasks outlined in the plan include:
        <bullet> Building stockpiles of pre-pandemic vaccine adequate 
        to immunize 20 million persons against influenza strains that 
        present a pandemic threat;
        <bullet> Expanding domestic influenza vaccine manufacturing 
        surge capacity for the production of pandemic vaccines for the 
        entire U.S. population within 6 months of a pandemic 
        declaration;
        <bullet> Building stockpiles of antivirals adequate to treat 
        25% of the U.S. population, divided between Federal and State 
        stockpiles;
        <bullet> Building a Federal stockpile of 6 million treatment 
        courses reserved for domestic containment efforts.
        <bullet> Developing clear guidelines and decision criteria to 
        assist State, local, and tribal governments and the private 
        sector in defining groups that should receive priority access 
        to existing limited supplies of vaccine and antiviral 
        medications and other critical medical care.
        <bullet> Working with State and tribal entities to develop and 
        exercise influenza countermeasure distribution plans and to 
        include the necessary logistical support of such plans, 
        including security provisions.
        <bullet> Establishing a strategy for deploying Federal medical 
        providers from across the USG, including expanding and 
        enhancing programs such as the Medical Reserve Corps and 
        supporting the transformation of the Commissioned Corps of the 
        Public Health Service.
        <bullet> Creating plans to rapidly credential, organize, and 
        incorporate volunteer health and medical providers as part of 
        the medical response in areas that are facing workforce 
        shortages.

        <bullet> Supporting local and national efforts to:
                <bullet> establish ``real-time'' clinical surveillance 
                in domestic acute care settings such as emergency 
                departments, intensive care units, and laboratories;
                <bullet> link hospital and acute care health 
                information systems with local public health 
                departments; and
                <bullet> advance the development of the analytical 
                tools necessary to interpret and act upon these data 
                streams in real time.
        <bullet> Establishing a single interagency hub for infectious 
        disease modeling efforts, and ensuring that this effort 
        integrates related modeling efforts for transportation 
        decisions, border interventions, economic impact, etc. HHS will 
        also work to ensure that this modeling can be used in real time 
        as information about the characteristics of a pandemic virus 
        and its impact become available.
        <bullet> Providing guidance to all levels of government on a 
        range of options for infection control and containment, 
        including those circumstances where social distancing measures, 
        limitations on gatherings, or quarantine authority may be an 
        appropriate public health intervention.

Current HHS Progress
    In December 2005, Congress appropriated $3.8 billion to help the 
Nation prepare for pandemic influenza preparedness activities. Of that 
total, Congress allocated $3.3 billion to HHS for the first year of 
funding of the HHS Pandemic Influenza Plan. HHS will use these 
emergency funds to help achieve five primary objectives:
        1. Monitoring disease spread to support rapid response;
        2. Developing vaccines and vaccine production capacity;
        3. Stockpiling antivirals and other countermeasures;
        4. Coordinating Federal, State and local preparation; and
        5. Enhancing outreach and communications planning.
    HHS is working both domestically and internationally to monitor the 
spread of H5N1 and other possible pandemic viruses. On the 
international front, HHS is spending $125 million of its FY 06 
allowance to promote international pandemic preparedness and planning 
and augment existing capabilities in areas such as international 
surveillance, epidemiological investigation, and diagnosis of illness. 
Through collaborations with the World Health Organization (WHO), the 
United Nations Food and Agriculture Organization, the World 
Organization for Animal Health, and numerous national governments, HHS 
is working to build capacity in other countries to detect outbreaks 
early and to contain the spread of the virus. HHS has signed Memoranda 
of Understanding (MOUs) on influenza and other emerging infectious 
diseases with Institute Pasteur (IP); the Gorgas Institute and the 
Ministry of Health of Panama; and most recently, the International 
Center for Diarrheal Disease Research, Bangladesh (ICDDR,B). HHS 
experts have participated in WHO-led investigations into human cases of 
avian influenza in Indonesia, China, and Turkey and are providing 
substantial technical assistance for influenza containment activities 
to many other countries on an as needed basis. Overall, HHS is 
supporting influenza activities in approximately 40 countries and has 
assigned influenza staff to the World Health Organization (WHO) 
Secretariat, Regional, and country offices in Europe and Southeast 
Asia.
    On the domestic front, CDC is devoting $50 million to strengthen 
local laboratory capacity and capability and $35 million to accelerate 
the implementation of the national BioSense program to enhance our 
ability to detect an outbreak early. On January 1, 2006, BioSense RT 
(Real-Time) was launched in 10 select cities and 32 healthcare 
institutions across the country. Real-time transmission of existing 
clinical diagnostic and health information is being sent to CDC and 
analyzed. In April 2006, CDC launched a new data visualization and 
analysis tool for the use of all jurisdictional levels of public health 
(hospital, city, county, state, national). The BioSense implementation 
timeline is to link up to several hundred hospitals in over 30 cities 
by the end of 2006.
    In the event of a pandemic, infection control practices and social 
distancing measures (such as school closures, cancellation of public 
gatherings, etc), and antiviral drugs will be the first line of defense 
before a vaccine is available and could limit and delay the spread of 
the pandemic. Currently, the Strategic National Stockpile (SNS) has 
over 5 million treatment courses of antiviral drugs on hand. On March 
22, Secretary Leavitt announced the purchase of additional antiviral 
drugs that could be used in the event of a potential influenza 
pandemic. With these purchases, the SNS will have 26 million treatment 
courses of antiviral drugs that will be available to the States when an 
influenza pandemic is imminent. HHS' strategy is to federally procure 
an additional 24 million treatment courses of antiviral drugs through 
FY 07 and FY 08 funds and to offer a 25 percent federal subsidy for 
state purchase of another 31 million treatments courses. Thus, 
additional money will be needed to meet our goal to have enough 
antivirals for 25 percent of the population during a pandemic. 
Congressional support of $2.3 billion for the second year of the 
President's Pandemic Influenza plan will be critical to meet this goal.
    The cornerstone of the HHS Pandemic Influenza Plan is to create 
domestic manufacturing capacity sufficient to produce 300 million 
vaccine courses within 6 months of the onset of a pandemic outbreak, 
and to maintain a stockpile of pre-pandemic vaccine. We currently have 
approximately 4 million courses of pre-pandemic vaccine against a clade 
1 H5N1 avian influenza strain. Plans and procedures are also underway 
to manufacture pre-pandemic vaccine against a clade 2 H5N1 avian 
influenza strain that is currently circulating the globe.
    On May 4, 2006 Secretary Leavitt announced the award of $1 billion 
for five contracts to support the development of advanced techniques 
using a new cell-based, rather than an egg-based, approach to producing 
influenza vaccines. Using a cell culture approach to producing 
influenza vaccine is a promising technology and offers a number of 
benefits. Vaccine manufacturers can bypass the step needed to adapt the 
virus strains to grow in eggs. In addition, cell culture-based 
influenza vaccines will help meet surge capacity needs in the event of 
a shortage or pandemic, since cells may be frozen in advance and large 
volumes grown quickly. U.S. licensure and manufacture of influenza 
vaccines produced in cell culture also will provide security against 
risks associated with egg-based production, such as the potential for 
egg supplies to be contaminated by various poultry-based diseases, 
including pandemic influenza strains. Finally, the new cell-based 
influenza vaccines will provide an option for people who are allergic 
to eggs and therefore unable to receive the currently licensed 
vaccines.
    A total of $1.7 billion in FY 2006 funding is allocated for vaccine 
development to increase vaccine production capacity by accelerating 
cell-based manufacturing technology, increasing egg-based vaccine 
production capacity, and supporting the advanced development for 
antigen sparing technologies that could extend the vaccine supply by 
decreasing the amount of antigen needed to protect each individual.
    Progress has also been made in the SNS purchase of medical supplies 
and equipment essential to pandemic readiness. HHS has purchased over 
150 million N95 respirators and surgical masks with approximately $50 
million of FY06 funds. Other planned procurements include personal 
protective equipment (PPE), ventilators, IV antibiotics, and other 
medical supplies. Advanced development for rapid diagnostic tests also 
continues through the use of FY06 funds. A request for information 
(RFI) was issued for a point-of-care diagnostic on March 30, 2006 and a 
request for proposal (RFP) will be issued soon.

State and Local Preparedness
    Pandemic influenza preparedness requires the active planning and 
participation of States and local communities. If a pandemic were to 
occur in the U.S., it would likely affect thousands of communities at 
the same time over the course of many weeks. The Federal Government is 
working to provide guidance regarding how state, local, and tribal 
governments can develop pandemic preparedness plans and respond in the 
event of a pandemic. As part of the Administration's effort to enhance 
State and local pandemic preparedness, HHS has held pandemic influenza 
summits in 47 States and the District of Columbia so far. These summits 
have brought together State and local officials, public health, 
schools, businesses, and other stakeholders to discuss pandemic 
preparedness. With the FY 2006 emergency funding, HHS has awarded $100 
million of the $350 million allocated for State preparedness for 
pandemic influenza preparedness planning activities. The remaining 
portion of these funds will be awarded based on benchmarks that will 
measure States' progress.
    It is important to note that HHS funding to enhance State and local 
preparedness for public health emergencies, including pandemic 
influenza, has existed since 2001. Principally through CDC and HRSA 
funds have been provided to States and localities to upgrade infectious 
disease surveillance and investigation, enhance the readiness of 
hospitals and the health care system to deal with large numbers of 
casualties, expand public health laboratory and communications 
capacities and improve connectivity between hospitals, and city, local 
and state health departments to enhance disease reporting.
    First, CDC provides preparedness funding annually to public health 
departments of all the States, certain major metropolitan areas, and 
other eligible entities through cooperative agreements. Second, HRSA 
employs complementary cooperative agreements to provide preparedness 
funding annually within States for investment primarily in hospitals 
and other healthcare entities. HHS collaborates with DHS toward 
ensuring that the guidance associated with the CDC and HRSA awards is 
coordinated with the guidance associated with those DHS awards that 
address other aspects of State and local preparedness, such as 
emergency management and law enforcement. Including the funding we have 
requested for FY07, CDC and HRSA's total investments in State and local 
preparedness since 2001 will total almost $8 billion.
    In addition, the ability to quickly increase the number of health 
care workers available is a critical component of State and local 
public health emergency response capacity. HRSA has supported efforts 
to improve personnel surge capacity. Funds are used to allow 
jurisdictions to develop or enhance Emergency Systems for Advance 
Registration of Volunteer Health Professionals (ESAR-VHP), authorized 
under the Public Health Security and Bioterrorism Preparedness and 
Response Act. ESAR-VHP is designed to help States develop registries of 
volunteer health professionals whose credentials have been verified in 
advance of an emergency so that they can be quickly called on and 
utilized in an emergency. In addition to the FY07 budget request of $8 
million to continue HRSA's registration system, the budget also 
proposes development of a web-based portal that would create the means 
for integrating the state ESAR-VHP systems into a National system, 
thereby promoting a more coordinated national deployment of personnel. 
The portal is intended to not only integrate existing state ESAR-VHP 
systems, but to also provide a credentialing service that could assist 
states with the development of their ESAR-VHP databases. The budget 
also proposes to fund a Mass Casualty Initiative, including the Medical 
Reserve Corps and Healthcare Provider Credentialing and the 
Commissioned Corps Transformation initiatives.
    Lastly, effective communications and outreach are essential to 
pandemic preparedness at the Federal, State and local levels. President 
Bush called for the development of a single, comprehensive web site to 
be the official Federal source of pandemic and avian influenza 
information. This web site, www.PandemicFlu.gov, includes a wide range 
of information on pandemic influenza and preparedness activities. In 
addition, HHS has developed a series of checklists intended to aid 
preparation for a pandemic in a coordinated and consistent manner 
across all segments of society. Thus far, ten checklists have been 
released and are aimed at State and local governments, the business 
community, the education sector, the health sector, community 
organizations, and individuals and families.

Conclusion
    Thank you for the opportunity to share this information with you. 
Although much has been accomplished, continued vigilance and 
preparation are needed for us to be ready for a pandemic. I am happy to 
answer any questions at this time.

    Mr. Linder. Thank, Dr. Agwunobi.
    Dr. Clifford.

   STATEMENT OF HON. JOHN CLIFFORD, DEPUTY ADMINISTRATOR FOR 
    VETERINARY SERVICES, ANIMAL AND PLANT HEALTH INSPECTION 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Dr. Clifford. Chairman Linder, Congressman Dicks, members 
of the committee, thank you for the opportunity to testify 
before the committee today. The implementation plan for the 
National Strategy for Pandemic Influenza takes major components 
of the President's National Strategy for Pandemic Influenza and 
breaks them down into more than 300 critical actions.
    As the primary agency for dealing with the disease in 
poultry, the implementation plan directs USDA to play either a 
leadership or coordinating role in 98 critical actions. 
Examples include continuing our support of efforts overseas to 
slow the spread of the disease in poultry, expanding our 
domestic surveillance and early warning systems, and ensuring 
we have a strong plan in place to respond to protection of high 
pathogenic H5N1 in U.S. poultry.
    The last department emergency supplemental bill for 
pandemic influenza preparedness included $91.35 million for 
USDA. We have since been working to ensure that our plans for 
using these funds are strategically sound and coordinated with 
our many cooperators. We are using approximately $20 million to 
help affected countries overseas in collaboration with 
international organizations such as the FAO, the World Health 
Organization and the OIE, which is the World Organization for 
Animal Health.
    Domestically, we are using approximately $72 million for a 
variety of efforts, including antismuggling programs, continued 
research, strengthening wild bird and domestic poultry 
surveillance efforts and increases to the current animal 
vaccine stockpile.
    I would like to focus my remaining time on APHIS's newly 
drafted avian influenza response plan. This draft response plan 
supports one of USDA's major mandates in the President's 
implementation plan, the control and eradication and the 
introduction into the United States of highly pathogenic avian 
influenza. This plan would guide the steps taken by the USDA 
and our State and industry partners following the detection of 
high path H5N1 in domestic poultry.
    USDA has in place a robust emergency response program 
designed to complement all of our surveillance efforts. In 
conjunction with our colleagues, APHIS maintains State level 
emergency response teams. These teams would typically be on 
site within 24 hours of the initial examination and diagnosis 
or presumptive diagnosis of avian influenza or any other 
significant foreign animal disease.
    Destruction of the affected flocks would be our primary 
concern and course of action. The response plan also provides 
guidelines as to how APHIS would work with States to quarantine 
affected premises and clean and disinfect those premises after 
birds have been depopulated and disposed.
    Surveillance testing would also be conducted in the 
quarantine zone and surrounding area to be sure that the virus 
is completely eradicated. The response plan focuses on quickly 
containing and eradicating the virus before it has a chance to 
spread further in poultry population. It draws on our real 
world experience in handling avian influenza viruses, as well 
as our ongoing partnerships with Federal agencies, State 
agricultural departments, State veterinarians, the poultry 
industry and the conservation and wildlife communities. The 
plan is designed to be flexible and does not supersede any 
State response plans. The response plan will be an evolving 
document and takes into consideration the latest scientific 
information and approaches to emergency preparedness and 
response.
    I would like to close by offering a few important thoughts.
    First, just like in people, there are many strains of 
influenza that affect birds with varying degrees of impact and 
importance.
    Second, the detection of high path H5N1 virus circulating 
overseas in birds found here in the U.S. would not indicate a 
start of a human pandemic.
    Third, a detection in wild birds does not mean the virus 
will reach a commercial poultry operation. We are certainly 
preparing as if it will. But the U.S. poultry industry employs 
a very sophisticated program of firewalls to protect the safety 
of their product.
    Fourth, even if a virus reaches a commercial poultry 
operation, there is no reason for consumers to be concerned 
about the safety of poultry that they purchase and eat.
    Finally, when it comes to food safety, consumers have the 
power to protect themselves. Proper handling and cooking of 
poultry kills a virus as well as other foodborne pathogens. 
Properly prepared poultry is safe.
    Thank you again for the opportunity to testify before the 
committee today.
    [The statement of Dr. Clifford follows:]

                Prepared Statement of Dr. John Clifford

    Chairman King, Ranking Member Thompson, thank you for the 
opportunity to testify before the Committee this afternoon. My name is 
Dr. John Clifford and I am the Deputy Administrator for Veterinary 
Services with the Department of Agriculture's (USDA) Animal and Plant 
Health Inspection Service (APHIS). In this position, I also serve as 
USDA's Chief Veterinary Officer.
    USDA appreciates your interest in our efforts to ensure that 
preparedness for a potential introduction of highly pathogenic H5N1 
avian influenza virus into the U.S. poultry population remains high. I 
also welcome the opportunity to provide you with information on our 
roles and responsibilities under the Implementation Plan for the 
National Strategy for Pandemic Influenza.

National Implementation Plan for Pandemic Influenza
    On May 3, 2006, President Bush announced his Implementation Plan 
for the National Strategy for Pandemic Influenza. The focus of the 
Implementation Plan is to ensure that the efforts and resources of the 
Federal government are being brought to bear in a coordinated manner 
against the pandemic threat.
    The Implementation Plan takes the major components of the 
President's National Strategy for Pandemic Influenza and breaks them 
down into more than 300 critical actions--many of which have already 
been initiated. The Plan directs involved Federal agencies to carry out 
these critical actions within prescribed amounts of time. The Plan is 
helping to ensure that the Federal government, along with our State and 
local partners and industry, continues to take appropriate steps in 
preparation for a possible influenza pandemic in the country.
    I want to stress that this disease, first and foremost, continues 
to affect birds. However, we know it has caused acute illness in people 
who have had direct contact with sick or infected birds, with about 
half of these human cases resulting in death. We know that the virus, 
through mutation, could present a much greater risk to human health 
worldwide. So, there are both animal health and human health aspects of 
the Federal government?s preparations.
    As the President's Implementation Plan makes clear, these 
preparations are being closely coordinated among several departments, 
as well as with State and local governments and industry. USDA is the 
primary agency in terms of dealing with the disease in poultry. The 
Implementation Plan directs USDA to play either a leadership or 
coordinating role in 98 critical actions. These include initiatives 
such as continuing our support of the coordinated efforts overseas to 
slow the spread of the disease in poultry and expanding our domestic 
surveillance and early warning systems while ensuring we have a strong 
plan in place to guide, along with our partners, the swift, decisive 
response to any eventual detection of highly pathogenic H5N1 avian 
influenza in poultry here in our country.

    A few examples of USDA's critical actions under the Implementation 
Plan include:
        <bullet> Supporting the testing of all broiler flocks in the 
        United States for avian influenza and, more broadly, 
        strengthening surveillance across the board for the disease in 
        other segments of the poultry industry, as well as migratory 
        birds.
        <bullet> USDA's National Veterinary Stockpile is strategically 
        storing ``strike packs'' containing personal protective 
        equipment supplies designed to protect response personnel from 
        influenza viruses. These strike packs can be deployed within 24 
        hours to the site of an outbreak in the United States.
        <bullet> USDA recently posted to its avian influenza website a 
        draft summary of the National Avian Influenza Response Plan. 
        Once finalized, this plan will comprehensively guide the 
        aggressive steps that will be taken by USDA and our State and 
        industry partners following a detection of highly pathogenic 
        H5N1 avian influenza in domestic poultry.
        <bullet> Providing expertise and funding to assist the United 
        Nation's Food and Agriculture Organization (FAO) with a new 
        Crisis Management Center to enhance the coordinated response to 
        detections of highly pathogenic H5N1 avian influenza worldwide. 
        USDA training has been provided on incident command system 
        structures, communications, and deployment procedures. We 
        expect that the command center will be operational in the very 
        near future.
    I will touch more on these and other USDA critical actions in a few 
moments. But first I would like to stress that as we work to complete 
these efforts in the coming weeks and months, USDA will continue to use 
a four-pronged approach to combating avian influenza. First, we are 
focused on slowing the spread of this disease offshore by supporting 
other nations affected with this virus through robust support to the 
International Partnership on Avian and Pandemic Influenza and by 
adopting a coordinated approach to work with affected countries through 
the FAO and the World Organization for Animal Health (OIE). Second, we 
are conducting a proactive messaging campaign designed to educate the 
American public and poultry owners on this animal disease. We want to 
inform while not alarming. A third pillar of our doctrine is an 
aggressive surveillance program that focuses on four key areas: wild 
bird surveillance; commercial poultry operations; live bird markets; 
and backyard flocks. The fourth and final pillar of our doctrine is, 
when necessary, to execute our response and containment plans. USDA has 
a long and successful history of dealing with foreign animal diseases 
and, in particular, handling avian influenza. These successful efforts 
are due in large part to the high degree of cooperation we have 
undertaken with our State animal health colleagues, industry, and other 
Federal agencies.
    I want to emphasize to the Committee that in taking this multi-
faceted approach, we are not waiting for the virus to reach our shores 
before we begin coordinating our preparedness and response efforts with 
our partners. We know that the threat is real and that the virus could 
potentially arrive in our country via migratory birds. Therefore, many 
important planning and coordination efforts are already well underway. 
Our strategy, again, is that we are preparing as if the virus will 
reach U.S. poultry, while taking measures where possible to slow its 
spread overseas and, where and when we can, prevent its entry through 
pathways that we can address. I believe this approach is the right one 
to take, and will pay off greatly in the event this highly pathogenic 
H5N1, or another serious avian influenza virus, reaches our country.

Summary of Pandemic Influenza Supplemental Funding for USDA
    Last December, Congress approved, and President Bush signed into 
law, an emergency supplemental funding bill for pandemic influenza 
preparedness that included $91.35 million for USDA. Since that time, we 
have been working expeditiously to ensure that our plans for using 
these funds are strategically sound and fully coordinated with our many 
international, Federal, State, local, and industry cooperators. We have 
taken these responsibilities so seriously, in fact, that we have 
utilized USDA's and APHIS' emergency operations centers to coordinate 
our efforts. Our animal health officials have also worked under an 
incident command structure to maximize their communications, planning, 
and logistical capabilities.
    Let me quickly summarize the international and domestic initiatives 
funded by supplemental appropriations, all of which are also included 
as critical actions in the Implementation Plan.
    On the international front, we are using approximately $20 million 
to help affected countries overseas in collaboration with international 
organizations. Again, we are participating in a coordinated effort by 
the various interested U.S. Government agencies, led by the Department 
of State, to work with affected countries through the Food and 
Agriculture Organization of the United Nations (FAO), the World Health 
Organization (WHO), and the World Organization for Animal Health (OIE).
    We have developed a coordinated approach to work with affected 
countries through the FAO and the OIE. This plan calls for the OIE to 
lead and coordinate robust, consistent assessments of veterinary 
service capacity in developing countries reporting cases of the H5N1 
virus. This would also entail evaluating H5N1 eradication and control 
plans in affected and at-risk countries. These assessments will form 
the basis for carefully planned attempts to improve animal health 
services capacity, using a range of support mechanisms including 
international financial assistance and technical and other support from 
the private and public sectors. Countries, like the United States, with 
proven expertise in these areas would also provide personnel for 
assessment teams that will travel to countries and provide on-the-
ground recommendations and assistance. Then, ultimately, a prioritized 
list of needs for specific regions of the world would be produced to 
further direct program coordination and resources to the most at-risk 
areas. The FAO will coordinate these infrastructure improvements 
efforts globally, regionally, and in affected countries with local 
authorities.

    On the domestic front, we are utilizing approximately $72 million 
from the emergency supplemental appropriation, in part, to:
        <bullet> Enhance smuggling interdiction and trade compliance 
        ($9 million);
        <bullet> Continue research and development of improved tools 
        like vaccines, genome sequencing; environmental surveillance 
        and biosecurity measures ($7 million);
        <bullet> Enhance surveillance of wildlife/bird flyways ($18 
        million);
        <bullet> Strengthen other domestic surveillance and diagnostics 
        (about $18 million);
        <bullet> Increase the current animal vaccine stockpile and 
        stock other response supplies ($10 million);
        <bullet> Enhance planning, equipment, and preparedness 
        training, and the development of simulation models ($9 
        million); and
        <bullet> Improve a variety of other preparedness activities ($1 
        million)
    USDA has been engaged in avian influenza response efforts for 
decades. We have much real-world experience dealing with the disease--
both the low pathogenic and highly pathogenic forms. Based on that 
experience, we are focusing our resources where they are most needed.

Surveillance and Detection
    A 1983 outbreak of highly pathogenic avian influenza was the 
largest incident of the disease in this country, ultimately resulting 
in the destruction of 17 million birds in Pennsylvania and Virginia to 
eradicate the virus. By contrast, a 2004 outbreak in Texas was quickly 
isolated to a flock of 6,600 birds and eradicated.
    The disease detection in Texas underscores just how critical 
effective biosecurity measures, stringent surveillance, timely 
reporting, and swift control, eradication, and disinfection are to an 
effective emergency response. We are striving to bolster all of these 
capabilities through our plan for using the emergency supplemental 
funding, as well as by meeting our requirements under the Pandemic 
Influenza Implementation Plan.
    I believe we are in an excellent position to accomplish this goal 
today because of the partnerships we have forged with State animal 
health officials and the poultry industry over the years. Several 
programs are helping to foster close relations with States and 
industry. One of them is the longstanding National Poultry Improvement 
Plan (NPIP), a cooperative Federal-State-industry program designed to 
enhance the health and marketability of commercial U.S. poultry. The 
other is our new low-pathogenic avian influenza program, designed to 
increase surveillance efforts for the low-pathogenic H5 and H7 strains 
of the disease in commercial flocks and the live bird marketing system. 
These strains, if left unaddressed, have the potential to mutate into a 
more virulent disease. Both of these programs are serving as 
springboards as we enhance surveillance efforts, enter into additional 
cooperative agreements with States, and tighten our emergency response 
plans.
    We are using approximately $5.9 million for the NPIP cooperative 
effort to enhance the testing of commercial flocks--broilers, layers, 
turkeys, and their respective breeding flocks--for avian influenza 
viruses of concern. The supplemental also includes $2.9 million for 
surveillance by USDA's National Veterinary Services Laboratories 
(NVSL). This funding will allow NVSL to provide support to approved 
laboratories for the processing of samples. This includes all segments 
of the surveillance program for H5N1, including samples collected from 
wildlife, commercial poultry, and the live bird marketing system in the 
United States.
    This funding will also allow NVSL to develop and contract out the 
production of agar gel immunodiffusion (AGID) testing reagents to be 
distributed at no charge to laboratories approved to participate in the 
surveillance effort. In this way, we will meet the poultry industry's 
desire to test all broiler flocks in the United States for avian 
influenza and, more broadly, surveillance across the board will be 
strengthened.

Migratory Bird Surveillance
    Another area where we have taken steps to obtain better information 
regarding any potential disease threat to U.S. poultry is migratory 
bird surveillance. Wild birds, in particular certain species of 
waterfowl and shorebirds, are considered to be the natural reservoirs 
for many common, relatively harmless strains of avian influenza. We 
also know that migratory birds have been implicated, to some degree, in 
the spread of the disease overseas.
    On March 20, 2006, the Departments of Agriculture, the Interior, 
and Health and Human Services released an inter-agency strategic plan 
that expands the monitoring of migratory birds in the United States for 
the highly pathogenic H5N1 virus and establishes common protocols for 
testing birds and tracking the data.
    ``An Early Detection System for H5N1 Highly Pathogenic Avian 
Influenza in Wild Migratory Birds--U.S. Interagency Strategic Plan'' 
reflects the best possible scientific information on the highly 
pathogenic H5N1 virus and the migratory patterns of wild birds. In 
addition, the plan draws on ongoing partnerships with State and private 
wildlife experts, animal health experts, as well as public health 
officials.
    The plan targets bird species in North America that have the 
highest risk of being exposed to, or infected with, highly pathogenic 
H5N1 because of their migratory movement patterns. Key species of 
interest include ducks, geese, and shorebirds.
    Personnel from USDA, Department of the Interior, State wildlife 
agencies, and other cooperators will work closely to obtain samples and 
test them for avian influenza viruses of concern.
    Under the new enhanced surveillance program for migratory birds, 
APHIS officials began sampling efforts in Alaska in late April. I would 
note here that between 1998 and 2005, USDA's Agricultural Research 
Service and the University of Alaska partnered to test some 12,000 
samples taken from wild migratory birds in Alaska for avian influenza 
viruses of concern. All these samples were negative for these viruses 
of concern to us.
    In other areas under the enhanced migratory bird surveillance plan, 
APHIS has also begun sampling Eastern wild turkeys in collaboration 
with the Vermont Fish and Wildlife Department. And just last week, our 
National Wildlife Research Center began processing environmental water 
and fecal samples collected from areas of Alaska that harbor high-risk 
waterfowl and shorebirds. Other states will begin collecting similar 
high-risk environmental samples in June based on migration patterns.

Import Restrictions and Anti-Smuggling Efforts
    There are other important efforts USDA has employed to keep the 
H5N1 virus and others out of the United States. As a primary safeguard, 
APHIS maintains trade restrictions on the importation of live poultry, 
birds, and unprocessed poultry products from all affected countries. 
Heat-treated poultry meat and eggs from countries with highly 
pathogenic avian influenza are considered eligible for importation from 
countries with equivalent meat inspection systems. Imports of live 
birds, poultry and unprocessed poultry products may resume after APHIS 
has completed a regionalization analysis that identifies the entire 
country or zone within the affected-country as disease-free. Import 
permits must accompany properly sanitized products, such as feathers.
    APHIS' Smuggling, Interdiction, and Trade Compliance (SITC) teams, 
as well as our colleagues with the Department of Homeland Security's 
Customs and Border Protection, have been alerted and are vigilantly on 
the lookout for any poultry or poultry products that might be smuggled 
into the United States from any of the affected countries. In the 
coming weeks, APHIS port veterinarians will make presentations to CBP 
officials at numerous high-traffic U.S. ports of entry to ensure that 
inspectors are reminded of the protocols for handling live birds they 
intercept, as well as have accurate contact information for any related 
questions or concerns. Additionally, USDA quarantines and tests 
imported live birds from countries (excluding Canada) not known to have 
cases of infection to make sure that pet birds and other fowl do not 
inadvertently introduce disease into the United States.
    I'd like to point out that APHIS' SITC program is responsible for 
intelligence gathering and other anti-smuggling activities, such as 
secondary market and warehouse inspections, that help prevent animal 
and plant pests and diseases from entering the United States. As I 
said, SITC has increased its targeting of illegal shipments of birds or 
bird products that could potentially carry the highly pathogenic H5N1 
avian influenza virus, as well as its partnering with other Federal 
agencies and law enforcement personnel. Thus far in fiscal year 2006, 
SITC has already contributed to 63 separate seizures of prohibited 
products from countries reporting detections of the highly pathogenic 
H5N1 virus. These seizures total more than 135,000 pounds of prohibited 
poultry products that, again, could pose a risk of harboring the H5N1 
virus, or other serious poultry diseases.

The Draft National Avian Influenza Response Plan
    Now that I have touched on our plans to slow the spread of the 
highly pathogenic H5N1 virus overseas, exclude its entry into the 
United States through trade restrictions and anti-smuggling programs, 
and bolster domestic surveillance, I'd like to update you on our plans 
for responding to a detection of any highly pathogenic avian influenza 
in commercial poultry.
    Again, our ability to respond swiftly is linked directly to the 
strong cooperative efforts APHIS is engaged in with States and industry 
relative to avian influenza. The U.S. Poultry and Egg Association 
convened an industry-wide meeting in Atlanta, Georgia, on April 27, to 
facilitate dialogue with State and USDA officials regarding the many 
operational, policy, and communications issues related to our 
cooperative avian influenza preparedness efforts. Many of APHIS' senior 
animal health staff attended the meeting, which was, I believe, 
extremely beneficial to all who attended.
    Prior to the poultry industry meeting in Atlanta, APHIS posted to 
its website a draft summary of the National Avian Influenza Response 
Plan. This draft response plan supports one of USDA's major mandates in 
the President's Implementation Plan--the control and eradication of an 
introduction into the United States of highly pathogenic avian 
influenza.
    The draft response plan would guide the steps taken by USDA and our 
State and industry partners following a detection of highly pathogenic 
H5N1 avian influenza in domestic poultry. It reflects USDA's scientific 
expertise on highly pathogenic avian influenza viruses, as well as our 
real world experience in planning for, and responding to, incursions of 
significant animal diseases into the United States.
    In addition, the plan draws on our ongoing partnerships with other 
Federal agencies, State Agriculture Departments, State Veterinarians, 
the poultry industry, and the conservation and wildlife communities. In 
this way, the plan is designed to be flexible and does not supersede 
any State response plans. Rather, it complements such plans already in 
existence, or under development.
    As a result of tabletop exercises and numerous meetings and 
discussions with our partners, the response plan incorporates much 
positive feedback. In releasing a summary of the draft document and 
posting it online, we fully expect further review and comment by 
stakeholders. In this way, we intend for the response plan to be an 
evolving document that takes into account the latest scientific 
information and approaches to emergency preparedness and response.
    Let me elaborate a bit further on the Response Plan. USDA has in 
place a robust emergency response program designed to complement all of 
our surveillance efforts. When we have unexpected poultry, or for that 
matter livestock, illnesses or deaths on a farm, we immediately conduct 
a foreign animal disease investigation. We have a cadre of specially 
trained veterinarians who can be on site within four hours to conduct 
an initial examination and submit samples for additional laboratory 
testing. Also, the Departments of Health and Human Services and Labor 
are providing occupational health guidance on the use of personal 
protective equipment and antiviral prophylaxis treatments to USDA and 
other departments that have personnel in direct contact with live 
infected or dead poultry.
    In conjunction with our State colleagues, APHIS maintains State-
level emergency response teams on standby. These teams will typically 
be on site within 24 hours of the initial examination and diagnosis of 
a presumptive diagnosis of avian influenza or any other significant 
foreign animal disease. Destruction of the affected flocks would be our 
primary concern and course of action. We would also work with States or 
tribes to possibly impose State-level quarantines and movement 
restrictions.
    For highly pathogenic avian influenza as well as for low pathogenic 
H5 and H7 subtypes, the Response Plan provides guidelines as to how 
APHIS would work with States to quarantine affected premises and clean 
and disinfect those premises after the birds have been depopulated and 
disposed. Surveillance testing would also be conducted in the 
quarantine zone and surrounding area to ensure that the virus has been 
completely eradicated.
    I would like to note here that APHIS also maintains a bank of avian 
influenza vaccines for animals in the event that the vaccine would be a 
potential course of action in any outbreak situation. Funding included 
in the emergency request will augment the current animal vaccine bank 
by an additional 40 million doses. This expansion of the animal vaccine 
bank to approximately 100 million doses of avian influenza vaccine will 
be critical in the event of a large-scale avian influenza situation in 
the United States.
    I need to stress here, however, that wide-scale vaccination of 
poultry is not our primary strategy against avian influenza. Rather, 
poultry vaccination could be used in response to widespread detection 
of the disease in the United States to create barriers against further 
spread and assist with our overall control and eradication measures.
    The Response Plan's focus, first and foremost, is on quickly 
containing and eradicating this virus before it has the chance to 
spread further in the poultry population.

Communications
    I also want to emphasize that for the last several years APHIS has 
conducted a major outreach campaign called ``Biosecurity for the 
Birds.'' The campaign places informational materials directly into the 
hands of commercial poultry producers, as well as those raising poultry 
in their backyards. All of the brochures and fact sheets are available 
in several languages and emphasize the need for good biosecurity and 
disease surveillance programs to reduce the possibility of bringing any 
disease, not just avian influenza, on the farm or into their backyard. 
The campaign also encourages producers to report sick birds, thereby 
increasing surveillance opportunities for avian influenza.
    We also recognize that an essential part of a successful emergency 
response program is effective communication with the media and the 
public. This is especially important given the concern right now 
regarding avian influenza and potential risks to human health. To be 
prepared in the event of a detection, USDA has been coordinating 
closely with its counterparts at other Federal agencies, State 
Agriculture Departments, and industry organizations to ensure, when the 
time comes, consistent messages regarding the strain of the disease 
found, the steps being taken in response, and the potential effects to 
poultry and, if appropriate, human health. USDA officials have also 
participated in numerous government-wide tabletop exercises with a 
focus on avian influenza. Coordination will be vital to our ability to 
deliver important information, while maintaining public confidence in, 
among other things, the food supply and public health system. Our draft 
National Avian Influenza Response Plan includes a detailed 
communications plan that will guide our efforts in these areas.

Conclusion
    Allow me to close by offering a couple of thoughts that I believe 
are absolutely central to our discussion today. These points are also a 
critical part of understanding the broader context in which I believe 
avian influenza should be viewed.
    First, just like in people, there are many strains of influenza 
that affect birds, with varying degrees of impact and importance.
    Second, a detection of the highly pathogenic H5N1 avian influenza 
virus circulating overseas in birds here in the United States does not 
signal the start of a human pandemic. This virus is not easily 
transmitted from person to person. As I said, almost all of the human 
illnesses overseas were the result of direct contact with sick or dead 
birds.
    Third, a detection in wild birds does not mean the virus will reach 
a commercial poultry operation. We are certainly preparing as if it 
will, but the U.S. poultry industry employs a very sophisticated system 
of firewalls to protect the safety of their product. In addition, the 
wild migratory bird surveillance plan is serving as an early warning 
system for commercial poultry operations.
    Fourth, even if the virus reaches a commercial poultry operation, 
there is no reason for consumers to be concerned about the safety of 
the poultry that they purchase and eat, as long as the poultry is 
properly handled and cooked. Again, I believe that our state of 
readiness for a detection in commercial poultry is high, and our 
Response Plan would guide a swift, comprehensive response designed to 
minimize further spread of the disease.
    Finally, I want to stress again that when it comes to food safety, 
consumers have the power to protect themselves. Proper handling and 
cooking of poultry, quite simply, kills this virus and other food-borne 
pathogens. Properly prepared poultry is safe. To reinforce this message 
in the event of an outbreak in domestic poultry, the Federal government 
will provide supplemental guidance on food preparation and public 
health protection through a robust communications plan.
    Thank you again for the opportunity to testify before the Committee 
today. I will be happy to answer your questions.

    Mr. Linder. Thank you, Dr. Clifford.
    Mr. Verga.

STATEMENT OF HON. PETER F. VERGA, DEPUTY ASSISTANT SECRETARY OF 
      DEFENSE FOR HOMELAND DEFENSE, DEPARTMENT OF DEFENSE.

    Mr. Verga. Mr. Chairman, distinguished members of the 
committee. I will also thank you for the opportunity to address 
you today regarding Department of Defense's role in preparing 
for and responding to a possible outbreak of a pandemic 
influenza. I am joined today by Ms. Ellen Embry, who is our 
Deputy Assistant Secretary of Defense for Force Health 
Protection and Lieutenant Colonel Antonio Aragon of the Joint 
Staff.
    On Monday, March 11, 1918, as the United States continued 
to mobilize for the war in Europe, an Army private named Albert 
Gitchell reported to the camp hospital at Fort Riley, Kansas 
complaining of a fever, sore throat and a headache. By noon 
that same day, the camp's hospital had seen well over 100 
soldiers with similar symptoms, and by week's end, the number 
had jumped to 500. The pandemic influenza of 1918, which killed 
some 675,000 people in the United States and over 40 million 
worldwide, had begun.
    The effects of the 1918 influenza pandemic on the U.S. 
military were devastating. Of all the U.S. servicemen who died 
in Europe during World War I, approximately half of them, about 
43,000, fell to the influenza virus and not the enemy. As the 
servicemen gathered together to train for war, they unknowingly 
spread the virus that would eventually take so many lives.
    Entire units already shipping out to Europe were already 
showing the effects of the virus, while servicemen on the front 
became too sick to fight. The flu eventually devastated both 
sides of the conflict, and some believe that the virus killed 
more servicemen than weapons of war.
    The lessons of the 1918 worldwide influenza pandemic figure 
predominantly in global planning efforts made in preparation 
for the potential threat from an avian influenza pandemic.
    As noted, the National Strategy for Pandemic Influenza was 
published, and additionally, on May 3, 2006, the Federal 
Government published an implementation plan for that national 
strategy which details Federal Government preparedness and 
response efforts. These documents provide a blueprint for a 
coordinated national response to an influenza pandemic.
    Today I will focus on the Department of Defense's 
preparations for and response to a potential outbreak, which 
could have consequences similar to those of the catastrophic 
1918 pandemic. I will also address ongoing preparations within 
DOD to respond more broadly to a pandemic outbreak and not just 
the threat of an H5N1 strain.
    That national strategy was developed to guide our 
preparedness and response to a pandemic with the intent of 
stopping, slowing or otherwise limiting the spread, limiting 
the spread of the pandemic and mitigating disease, suffering 
and death, and sustaining infrastructure and mitigating impact 
of the economy and the functioning of society.
    The strategy has three pillars, preparedness and 
communication activities that should be undertaken before a 
pandemic; surveillance and detection of domestic and 
international systems to provide continuous situational 
awareness; and response and containment, actions to limit the 
spread of the outbreak among humans and to mitigate the health, 
national security, social and economic impacts.
    Preparing for and responding to pandemic influenza or any 
other threat, requires an active layered defense to integrate 
seamlessly U.S. government capabilities in the forward regions 
of the world, the approaches to U.S. territory, and within the 
United States. The effort will also include assisting partner 
countries to prepare for and detect an outbreak, respond should 
an outbreak occur, and manage the key second order of effects.
    There are four planning priorities in the implementation 
plan: protection of the health and safety of personnel; 
determination of essential functions and services and 
maintenance of those; support of the Federal response to a 
pandemic; and effective communications. The DOD implementation 
plan addresses each of these planning priorities in alignment 
with the pillars of the national strategy.
    The top priority within the Department is maintaining 
operational capability by protecting DOD forces. We must do 
this in order to execute our primary mission of defense of the 
homeland. In addition, DOD has a large supporting role in the 
national and international response to a pandemic influenza. 
The national strategy directs the Department, along with other 
departments and agencies, to examine ways to support the 
government-wide response.
    DOD has identified 19 critical tasks that the Department 
will perform to provide protection of personnel, mission 
assurance and the support to civil authorities, both foreign 
and domestic. These tasks include, among others, 
biosurveillance, disease detection, interagency planning 
support, communications support, the maintenance of civil 
order, continuity of operations in government and the support 
of international allies and nongovernmental organizations. Our 
five geographic combatant commanders around the world are also 
developing more detailed plans in their areas of 
responsibilities.
    In a very unique and tragic way, Army Private Albert 
Gitchell continues to significantly influence DOD's efforts to 
respond to pandemic influenza. By understanding the effect of 
the 1918 influenza pandemic on the U.S. military, we can better 
forecast the potential effects on our current operations and 
take prudent steps to minimize the potential impact on our 
fighting force as well as our Nation.
    Mr. Chairman, the efforts that are under way to prevent an 
outbreak of pandemic influenza are a testament to the 
leadership at the Federal level and superb coordination and 
cooperation among Federal, State, local, tribal and 
nongovernmental organizations and international organizations, 
including our allies.
    The Department of Defense is prepared to both combat the 
spread of a potentially catastrophic flu pandemic within the 
United States military and provide support to national and 
international organizations in their efforts to fight this 
disease.
    I thank you for your leadership on this issue and for the 
opportunity to appear before you today. I welcome any questions 
you may have.
    [The statement of Mr. Verga follows:]

                  Prepared Statement of Peter F. Verga

Introduction
    Chairman King, Ranking Member Thompson, and distinguished members 
of the subcommittee: thank you for the opportunity to address you today 
regarding the Department of Defense's role in preparing for, and 
responding to, a possible outbreak of pandemic influenza.
    On Monday, March 11, 1918, as the United States continued to 
mobilize for war in Europe, Army Private Albert Gitchell reported to 
the camp hospital at Fort Riley, Kansas, complaining of fever, sore 
throat, and a headache. By noon that same day, the camp's hospital had 
seen well over 100 soldiers with similar symptoms. By week's end, that 
number had jumped to 500. The influenza pandemic of 1918, which killed 
675,000 people in the United States and 40 million people worldwide, 
had begun.
    The effects of the 1918 influenza pandemic on the U.S. military 
were devastating. Of all the U.S. servicemen who died in Europe during 
World War I, approximately half of them, an estimated 43,000 
servicemen, fell to the influenza virus and not to the enemy. As the 
servicemen gathered together to train for war, they unknowingly spread 
the virus that would eventually take so many lives. Entire units 
shipping out to Europe were already showing the effects of the virus 
while servicemen on the front became too sick to fight. The flu 
eventually devastated both sides of the conflict--some believe the 
virus killed more servicemen than the weapons of war.
    The lessons from the 1918 worldwide influenza pandemic figure 
prominently in the extraordinary global planning efforts made in 
preparation for the potential threat from an avian influenza pandemic. 
On November 1, 2005, President Bush announced the publication of the 
National Strategy for Pandemic Influenza. Additionally, on May 3, 2006, 
the Federal government published the Implementation Plan for the 
National Strategy for Pandemic Influenza, which details the Federal 
government's preparedness and response efforts for a pandemic influenza 
scenario. These documents provide a blueprint for a coordinated 
national response to an influenza pandemic.
    My testimony today will focus on the Department of Defense's 
preparations for and response to a potential outbreak of avian 
influenza, which could have consequences similar to those of the 
catastrophic 1918 pandemic. I will also address ongoing preparations 
within DoD to respond more broadly to a pandemic influenza outbreak, 
and not just the current threat posed by the H5N1 strain of the avian 
influenza.

National Strategy for Pandemic Influenza and the Implementation Plan 
for the National Strategy for Pandemic Influenza
    The National Strategy for Pandemic Influenza was developed to 
``guide our preparedness and response to an influenza pandemic with the 
intent of (1) stopping, slowing or otherwise limiting the spread of a 
pandemic to the United States; (2) limiting the spread of a pandemic 
and mitigating disease, suffering, and death; and (3) sustaining 
infrastructure and mitigating impact to the economy and the functioning 
of society.'' The National Strategy uses three pillars to guide and 
enhance preparedness and further directs the development of Federal 
implementation plans in order to support the tenets of the National 
Strategy.

        The three pillars of the National Strategy are:
        <bullet> Pillar #1: Preparedness and Communication--These are 
        activities that should be undertaken before a pandemic to 
        ensure preparedness and the communication of roles and 
        responsibilities to all levels of government, segments of 
        society, and individuals.
        <bullet> Pillar #2: Surveillance and Detection-- These are the 
        domestic and international systems that provide continuous 
        ``situational awareness'' to ensure the earliest warning 
        possible of outbreaks among animals and humans to protect the 
        population.
        <bullet> Pillar #3: Response and Containment--These are the 
        actions to limit the spread of the outbreak among humans and to 
        mitigate the health, national security, social, and economic 
        impacts of a pandemic.
    In addition to the National Strategy, the Federal Government 
recently released the Implementation Plan for the National Strategy for 
Pandemic Influenza. This document provides a framework to the National 
Strategy, assigns preparedness and response tasks to Federal 
departments and agencies, and describes U.S. Government expectations of 
non-Federal entities, including State, local, and tribal governments, 
the private sector, international partners, and individuals. The 
Implementation Plan translates the National Strategy into over 300 
tasks to achieve the goals of the National Strategy.

DoD's Implementation of the National Strategy for Pandemic Influenza
    Preparing for and responding to a pandemic or pandemic influenza, 
or any other threat, requires an active, layered defense. This posture 
is global in scope and seeks to integrate seamlessly U.S. government 
capabilities in the forward regions of the world, in the approaches to 
the U.S. territory, and within the United States. This effort will also 
include assisting partner countries to prepare for and detect an 
outbreak, to respond should an outbreak occur, and to manage the key 
second-order effects that could lead to an array of challenges.
    Under the Implementation Plan, Federal departments and agencies, 
including DoD, focus on four Federal planning priorities: (1) 
protection of the health and safety of personnel and resources; (2) 
determination of essential functions and services and the maintenance 
of each; (3) support the Federal Response to a Pandemic; and (4) 
effective communications. DoD's Implementation Plan addresses each of 
the planning priorities, in alignment with the three pillars of the 
National Strategy.
    The top priority within DoD is the protection of DoD forces, which 
are composed of the uniformed military, DoD civilians, and contractors 
performing critical roles, as well as the associated resources 
necessary to maintain the readiness of the Total Force. Of equal 
importance is our ability to execute our primary mission of the defense 
of our homeland. Priority consideration is also given to protecting the 
health of DoD beneficiaries and family members, who rely upon military 
treatment facilities and on private health care providers.
    In addition to the protection of DoD forces, DoD has a supporting 
role in the national and international response to a pandemic 
influenza. The National Strategy directs DoD, along with all other 
Federal departments and agencies, to examine ways to support a 
government-wide response to a pandemic. DoD is developing plans to 
utilize its medical surveillance and laboratory testing facilities 
abroad to provide early warning and tracking of a pandemic influenza. 
Potentially, the military could provide transportation of essential 
resources with its air and ground transportation assets. National Guard 
units and members--to whom the Posse Comitatus Act does not apply when 
in State Active Duty or Title 32 status--could provide security for the 
protection and distribution of pharmaceuticals. Another potential 
support role for DoD could be the provision of surge medical capability 
such as health and medical care providers.
    DoD has identified 19 critical tasks that the Department will 
perform to provide protection for its personnel, mission assurance, and 
support to civil authorities, both foreign and domestic, in response to 
a pandemic influenza outbreak. These tasks are already driving the 
shape and content of joint training, military exercises, and 
coordination with interagency partners. These tasks include:
        <bullet> Medical intelligence
        <bullet> Force Protection (including Force Health Protection)
        <bullet> Biosurveillance, disease detection, and information 
        sharing
        <bullet> Interagency planning support
        <bullet> Surge medical capability to assist civil authorities
        <bullet> Medical care to U.S. forces
        <bullet> Patient transport and strategic airlift
        <bullet> Installation support to civilian agencies
        <bullet> Bulk transport of pharmaceutical/vaccines/commodities
        <bullet> Security in support of pharmaceutical/vaccine 
        production and distribution
        <bullet> Protect defense critical infrastructure
        <bullet> Communications support to civil authorities
        <bullet> Quarantine assistance to civil authorities
        <bullet> Military assistance for civil disturbances
        <bullet> Mission assurance: Defense Industrial Base
        <bullet> Mortuary affairs
        <bullet> Continuity of operations/government
        <bullet> Support to international allies and non-governmental 
        organizations
        <bullet> Public affairs support to civil authorities
    Additionally, the five geographic combatant commanders (U.S. 
Northern Command, U.S. Southern Command, U.S. Pacific Command, U.S. 
Central Command, and U.S. European Command) are developing more 
detailed plans to protect DoD personnel, ensure mission continuity, 
support local or host-nation authorities, and interagency partners. 
These commanders are synchronizing their plans at the regional level 
with our international partners, as well as with other Federal, State, 
and local authorities.

DoD's Pandemic Influenza Task Force
    To better prepare for a potential pandemic, in November 2005, the 
Deputy Secretary of Defense directed that a pandemic task force be 
established within DoD. The Assistant Secretary of Defense for Homeland 
Defense (ASD(HD)) was named as the lead for the Pandemic Influenza Task 
Force (PITF). The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)) has supported the effort as the Department's lead for force 
heath protection and health and medical response. Additionally, the 
Office of the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict (ASD(SO/LIC)) has provided policy oversight of 
the DoD pandemic influenza bilateral and multilateral international 
partnership capacity building program.
    The ASD(HD) serves as the principal civilian advisor to the Deputy 
Secretary of Defense for all matters concerning pandemic influenza 
preparedness and response, as well as the official who coordinates all 
efforts of the Task force. These efforts include coordination of 
pandemic influenza preparedness, mitigation, and response policy within 
DoD and among appropriate interagency, international, governmental and 
non-government agencies and host nation partners.
    The Task Force is charged with the coordination and implementation 
of policies and plans that will (1) prepare, prevent, and contain the 
effects of a pandemic on military forces, DoD civilians, contractors, 
family members, and beneficiaries; (2) ensure the Department protects 
American interests at home and abroad; and (3) render appropriate 
assistance to civilian authorities in the United States.

Conclusion
    In a very unique and tragic way, Army Private Albert Gitchell 
continues to significantly influence DoD's efforts to respond to 
pandemic influenza. By understanding the effect of the 1918 influenza 
pandemic on the U.S. military, we can forecast the potential effects on 
our current operations and take prudent steps to minimize the potential 
impact on our fighting force, as well as our Nation.
    Mr. Chairman, the extraordinary efforts that are underway to 
prevent an outbreak of pandemic influenza are a testament to superb 
coordination and cooperation that is ongoing among Federal, State, 
local, tribal, non-governmental organizations, international 
organizations, and our allies. The Department of Defense is prepared to 
both combat the spread of a potentially catastrophic influenza pandemic 
within the U.S. military establishment, and to provide support to 
national and international organizations in their efforts to fight this 
disease.
    Thank you once again for this opportunity to testify before you 
today. I welcome any questions you may have.

    Mr. Linder. Dr. Runge, at what point does a public health 
event, such as the spreading of influenza, become an incident 
of national significance and DHS takes over from HHS 
coordinating the response?
    Dr. Runge. Mr. Chairman, we anticipate that in the event 
that this disease escapes simply the public health and medical 
response role, which we think will happen very shortly after 
human-to-human transmission is sufficient and sustained in the 
U.S., it would escape the confines of public health and medical 
and enter into severe economic consequences as well as the need 
for possible security issues. I think the Secretary would be 
very forward leaning in declaring such an incidence of 
significance.
    Just to remind the committee, the work of HHS goes on. The 
work of HHS is one of coordination and support for the public 
health and medical as well as our other medical 
responsibilities.
    Mr. Linder. Dr. Agwunobi, is HHS taking the 
responsibilities for finding surge capacity for hospital beds, 
sufficient numbers of ventilators and things such as that?
    Dr. Agwunobi. HHS recognize that an important part of 
pandemic preparedness is facilitating the development of 
adequate surge capacity in communities. But we see it as 
primarily a responsibility of local and State governments to 
look to their specific needs and to build those needs into 
their plans. We are stockpiling beds and ventilators within the 
Federal national stockpile, in case that is needed. Ultimately, 
we are also working with States and local governments to help 
them develop the capacity and the strategies to manage through 
the increase in surge that can be expected in a pandemic.
    Mr. Linder. Mr. Verga, does the DOD consider itself part of 
the surge problem?
    Mr. Verga. Yes, sir, as far as the surge capability, 
absolutely. Both National Guard and active duty medical 
response personnel would be available for medical surge. That 
is one of those 19 tasks that we identified.
    Mr. Linder. Do you see your role in the United States, 
after concerning yourself with the health of your troops and 
the protection of the mission, do you see a role in the United 
States more in terms of law and order or medical delivery or 
what?
    Mr. Verga. Sir, I think it is a combination, depending on 
the situation. As I said, we identified those 19 tasks, which 
run the gamut from assisting in the maintenance of public 
order, which we always have that mission of doing, to providing 
transportation, for example, the movement of critical, medical 
equipment or supplies, should the public transportation system 
not be adequate to handle it.
    We see ourselves very much in the role of supporting our 
Federal interagency partners in doing what they need to do to 
meet the needs of the American people in this kind of an 
emergency.
    Mr. Linder. Dr. Clifford, there was a recent story in The 
New York Times about a week ago that the migrating birds that 
have returned from South Africa on their way to Europe had no 
H5N1. What does that make you think about?
    Dr. Clifford. Well, I think, from our standpoint, we are 
enhancing the surveillance activities within the U.S., with 
regard to migratory bird surveillance. The plans with USDA and 
Department of Interior include sampling anywhere from 75,000 to 
100,000 samples in the four flyways across the U.S., and we 
have begun that effort in Alaska, as well as 50,000 
environmental samples, so as far as I think we need to monitor 
the flyways, as well as other potential avenues for 
introduction, which would also look at the Euro-Asian flyways 
as well. If we see a decrease of evidence of the virus in those 
birds, I think that is a positive thing.
    Mr. Linder. What are we doing about the millions of pounds 
of smuggled chickens into Europe from China?
    Dr. Clifford. I am not familiar with the millions of pounds 
of smuggled product from Europe.
    Mr. Linder. Into Europe.
    Dr. Clifford. Into Europe from China. Obviously the 
European Union or other European countries need to take action 
with that. With regard to the U.S., we work very closely with 
the Department of Homeland Security and our Customs and Border 
Patrol at the major ports of entry, as well as within APHIS. We 
have smuggling and interdiction teams that play a critical role 
as a second line of defense for smuggling into the U.S. That 
has been proven to be very beneficial in confiscation of 
illegal product into the U.S. from some of these countries.
    Mr. Linder. Are any of you prepared to say we are 
comfortable with the reporting we are getting out of China.
    Dr. Runge.
    Dr. Runge. I must profess not to be an expert in whether 
the veracity of their reports are sufficient or not, Mr. 
Chairman. I do think that the level of transparency has 
increased significantly, due to the good work of the folk 
overseas, as well as at WHO. We are seeing improvements in that 
area.
    Mr. Linder. Dr. Agwunobi.
    Dr. Agwunobi. I would concur. I think when we compare the 
degree of openness that we see today with what we saw during 
the SARS outbreak, it is pretty clear that they have come a 
long way since then.
    Mr. Linder. Dr. Clifford, do you agree?
    Dr. Clifford. I agree that it is improved. I mean, there is 
always more room for improvement, but it certainly has 
improved.
    Mr. Linder. Mr. Dicks is recognized for 5 minutes.
    Mr. Dicks. There is still some question out here, I think. 
I think it might be good to discuss this. The President has 
released his National Strategy for Pandemic Influenza. But some 
people feel that it is still not a plan, it is actually a plan 
to develop more plans.
    During the press conference announcing the release of the 
National Strategy for Pandemic Influenza, the White House 
Homeland Security Advisor Fran Townsend stated the plan 
contains over 300 specific actions for Federal departments and 
agencies, because we think it is important to measure and 
demonstrate the effectiveness of our efforts. Every one of the 
Federal actions included in the plan included a measure of 
performance and a timeline for implementation of the actions.
    Now, is that a plan, or is it a plan to make a plan? Can 
you help us with that?
    Dr. Runge. Congressman Dicks, the answer is yes. It is a 
plan, and it is also a plan to plan further.
    I want to point out that even as this interagency planning 
document has been produced through a rather exhaustive 
interagency process, even of writing it, and assigning 
ourselves actions and metrics and timelines, the departments 
themselves are busily engaged in doing their own planning for 
their areas are of unique responsibility. It is border 
management. It is workforce protection. It is quick 
consequences. It is a continuation of government, as well as 
protection of our critical infrastructures. HHS is busy doing 
the things that are unique to HHS. This is a means for us to 
coordinate the things which we must do.
    Mr. Dicks. Well, how many actions does Homeland Security 
have to take?
    Dr. Runge. We have 58 that we are responsible for.
    Mr. Dicks. How many do you have in place that you would 
consider an operational plan for those 58, any of them?
    Dr. Runge. We are very close on some, and we are way behind 
on others.
    Mr. Dicks. Well can you give us a little bit of a more 
definitive answer, how many--one, two--what number have you 
finished?
    Dr. Runge. We have not finished any of them.
    Mr. Dicks. There are 58 plans in action.
    Dr. Runge. There are 58 actions and another 84 which we are 
coordinating--we are coordinating other agencies. We have made 
great strides in workforce protection issues, for instance. We 
have made great strides in border management issues. We are 
still--there are policy issues that have bubbled up as a result 
of making these policy plans that actually need resolution 
during the policy process. Fortunately, we still have some time 
to deal with this.
    Mr. Dicks. What about HHS?
    Dr. Agwunobi. Sir, we have 199 of the action items dictated 
in the plan. We have a Department-wide plan that is already 
out, our strategic plan that came out a while ago, late last 
year. But in addition to that, we are working on the detailed 
implementation steps required to come through on our commitment 
to these 199, and that plan will be released shortly.
    Mr. Dicks. Are any of them completed now?
    Dr. Agwunobi. Any of the individual 199.
    Mr. Dicks. Yes.
    Dr. Agwunobi. I think a number are actually marked as being 
completed.
    Mr. Dicks. Could you give us that number for the record?
    Dr. Agwunobi. I will be sure to submit to you on the 
record, sir, what we have completed. I do want to leave one 
point, which is that all of these plans are go to be 
iteratively improved over time.
    Mr. Dicks. Right. We understand spiral development, maybe 
that is for Mr. Verga--we understand you have a plan, and then 
you improve on the plan. At least we hope you do.
    Dr. Clifford.
    Dr. Clifford. With regard to agriculture, I think many of 
the action items are enhancements to things that we have 
already been doing, so it is a continuation of those things. I 
would just like to add--
    Mr. Dicks. Are there any brand new ones?
    Dr. Clifford. Yes, there are some new ones that we have put 
in there as additional enhancements, but it is things 
relatively new from a standpoint, just didn't start with this 
concept. For example, the National Veterinary Stockpile. We had 
already been talking about that and initially were putting 
those actions into place.
    So it is stockpiling those, it is getting strike packs for 
those ready in case of an actual introduction for this National 
Veterinary Stockpile. Strike packs are goods that will go to 
the location to provide the support needed for the personnel 
there.
    Mr. Dicks. Now, in order to do a vaccine, you have to have 
a strain of the flu; is that correct?
    Dr. Agwunobi. That is correct, sir.
    Mr. Dicks. You can't really start until you have that 
strain, is that correct? I am not a biologist.
    Dr. Agwunobi. What we lack today is not only a sample of a 
pandemic strain, because there is none yet, there is no 
pandemic around the world, but we also lack the capacity to 
develop what we plan to do, which is to be able to deliver 300 
million doses of pandemic vaccine within 6 months of the 
pandemic virus rearing its head. Building that capacity 
requires that we begin now to invest not only in science and 
development, but also in the industry, trying to get the 
industry to be able to have the capacity that it takes to 
deliver on that promise.
    Mr. Dicks. Those of us who have been through hearings on 
bioshield, we haven't seen a great deal of ability for HHS and 
DHS and the companies to do very much. Is that going to be a 
problem here as well? I mean, are the companies willing to work 
on this?
    Dr. Agwunobi. We have learned a lot over the years. The 
companies are indeed very willing to work with us on this. They 
recognize this is a very critically important subject.
    Mr. Linder. Thank you. The gentleman from Alabama is 
recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Specifically, Dr. Agwunobi, what are you doing to make sure 
that the industrial infrastructure is in place to deal with the 
pandemic virus once it is identified?
    Dr. Agwunobi. A number of different steps. Specifically, 
for example, as recently announced by the Secretary, we have 
invested $1 billion in the furthering of our ability to use 
cell-based vaccine technology, new ways of producing vaccine. 
We are trying to diversify the numbers companies that are in 
the business of vaccine manufacturing. We are trying to 
diverse--
    Mr. Rogers. Are they domestic or foreign or both?
    Dr. Agwunobi. They are actually both, but in our approach, 
we would have them produce their vaccine right here in the 
United States. We believe that is an essential part of the 
strategy. So our investment makes that happen.
    But we are also diversifying the different ways that you 
can make vaccine, egg based, cell based, recombinant. We are 
investing in technology to try and get all of those options 
under way and to make sure that the first one that gets there 
is available to us.
    Mr. Rogers. I understand that. There is a company in 
Alabama, not in my district, but in Alabama called BioCryst 
that has produced permavir. I understand an RFP has recently 
gone out from your Department for an award on an antiviral. My 
urging to you would be whether it is permavir, or whatever you 
discern to be the best vaccine, antiviral vaccine, that you 
grant that award in a timely manner and not let that languish 
around.
    Dr. Agwunobi. I will be sure to take back that message. 
Whether it be for antivirals or for vaccines, I concur we need 
to move more quickly, and indeed, we are.
    Mr. Rogers. One of the things you made reference to in your 
earlier comments was stockpiling. What are you stockpiling 
since you acknowledge you don't know what the virus would look 
like?
    Dr. Agwunobi. Well, I think the strategy is to stand ready 
with a diverse armamentarium so that regardless of what the 
eventual virus might look like, its characteristics to drugs, 
that we might have a number of choices on that day.
    So we are stockpiling today, H5N1 vaccine, a vaccine 
against the virus that we are seeing in birds, the premise 
being that if the pandemic virus in the future looks very 
similar, that the vaccine that we have on hand today might be 
able to offer some abilities to protect.
    But we are also stockpiling antivirals, a number of 
different antivirals. We are stockpiling ventilators. We are 
stockpiling beds. We are stockpiling other medications, 
antibiotics others that might be needed, not only in a pandemic 
but in other hazards. We are stockpiling masks and gloves and 
other resources that might be required to fight a war against a 
pandemic. So it is really across the board.
    Mr. Rogers. I represent a very rural district in Alabama. I 
am curious to know in your action plans how you incorporate 
rural hospitals and rural clinics into your ability to 
distribute vaccines.
    Dr. Agwunobi. Two points. One actually goes to the question 
by the Chairman related to surge capacity. That is since 2001, 
we have actually, Congress and the Federal Government has 
invested $6.7 billion in preparing our Nation for public health 
emergencies. We have done so through the CDC. We have done so 
through HRSA, Health Resources and Services Administrations in 
the Department of Health and Human Services, and that has been 
focused on, almost 26 percent of that $6.7 billion has been 
focused on making sure that every hospital in our communities 
and in our Nation has been better able to take up a public 
health emergency. Much of that money has gone to rural 
hospitals specifically.
    As we move forward, we are investing pandemic influenza 
preparedness moneys in preparing states, $350 million, as was 
mentioned.
    Mr. Rogers. Over what timeline?
    Dr. Agwunobi. Our timeline for investing in preparedness is 
a 3-year time line. The $7.1 billion that was requested by the 
President, $3.8 billion of which has already been delivered, is 
really mainly dedicated to this 3-year strategy of building 
preparedness, not just in big cities but across every aspect of 
our Nation.
    Final point, sir, a pandemic is an equal opportunity 
threat. It will go to rural hospitals, to cities, to every 
corner of our Nation. Therefore, we can't afford to focus on 
one area and forget another.
    Mr. Rogers. Which is my point exactly. I want to make sure 
that we are just not focused on urban areas, and their 
hospitals and their ability to deliver the vaccine once it is 
identified--I do want to make sure that your action plans 
incorporate rural America, because most of this country is, in 
fact, rural and dependent on rural clinics and hospitals for 
delivery of this kind of health care.
    Mr. Runge, I would ask the same question to you about rural 
health care delivery in the area of a pandemic.
    Dr. Runge. I think it is important to note, Congressman 
Rogers, that we have gone out to, I think, 49 States now. When 
we go to these summits, we get representatives from every 
corner of every State, the public health community officers, as 
well as the State. We met with the hospital associations, the 
medical associations, the faith-based groups, the private 
sector, all together to talk about their role in a pandemic, 
with the major theme that the Federal Government has its 
responsibilities, but so do the local communities. In fact, 
every family has a responsibility. So this discussion is the 
same in virtually every State. I believe that they are 
sufficiently involved in the process.
    Mr. Rogers. I see my time has expired. I look forward to 
the next round of questions.
    Mr. Linder. The gentleman from Oregon is recognized for 5 
minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Dr. Agwunobi, gee, I just feel so much better to hear about 
the massive stockpiling. Unfortunately, it seems to be defied 
by reality.
    Let us talk about that a little bit. The Secretary of 
Health and Human Services recently came to my State. I will 
just give you a few quotes. He urged Oregonians to take 
planning seriously. Unlike natural disasters, such as Hurricane 
Katrina, there will be no help from the outside.
    If Katrina was good, I am really wondering about the 
Federal response. People of Oregon will have to take care of 
the people of Oregon, Leavitt said. Federal Government can't be 
in 5,000 communities.
    Surge capacity. Well, he said, elected officials should put 
a higher priority on healthcare. Maybe they should build in 
surge capacity instead of remodeling the swimming pool.
    Now, I am not quite sure what he is talking about here and 
what you are talking about. Let us talk about a few issues. You 
have a stockpile of 4,000 to 5,000 ventilators. The Center for 
Biosecurity says that the--no, excuse me, the shortage is 
estimated--that is another shortage--at about 637,000 from that 
which we would need.
    Have you developed triage guidelines for doctors to tell 
them who to disconnect and who to deny service to? Because in a 
regular flu year, we use 100,000 of our 105,000 ventilators. We 
are talking about a pandemic. You have got a stockpile of 4,000 
to 5,000, are you sanguine about that? Do you think that is 
enough?
    Dr. Agwunobi. Sir, as we work with States and with 
providers, hospitals and doctors, we recognize that each State 
is going to have to establish a plan.
    Mr. DeFazio. So the States are responsible for buying 
ventilators?
    Dr. Agwunobi. Each State and local community will have to 
respond--
    Mr. DeFazio. Right. So the States and local communities 
should be buying ventilators, not the Federal Government. You 
were talking about a stockpile. I am just confused.
    When you talk about a stockpile, you think, hey, the 
Federal Government has got a big stockpile. They are going to 
distribute them. Now you are saying, no, the State is going to 
distribute them. The State and the local hospitals, which can't 
get reimbursed for things that aren't needed for annual 
occurrences or regular Medicare won't factor in their surge 
capacity for pandemic or ventilators; will it? They won't allow 
that in reimbursement.
    Dr. Agwunobi. Some States, sir, require--some communities 
won't need to buy ventilators because they need to have plans 
for how to manage the resources that they have.
    Mr. DeFazio. Right. So you say, then, the article from The 
New York Times that says that we are 637,000 ventilators short 
is inaccurate.
    Let us go to the development and the stockpiling of, you 
were very sanguine also you said, about 3 years, we will have 
our capacity. The plan says, the primary objective, depending 
on availability of future appropriations and responsiveness of 
the vaccine industry, is for domestic manufacturers to be able 
to produce enough vaccine for the United States population 
within 6 months, beginning in 5 years. You said 3 years. I am 
confused.
    Dr. Agwunobi. Three to five years is the number we--
     Mr. DeFazio. Okay, so 3 to 5 years, not 3. It depends on 
the response of these manufacturers. Why are we relying on the 
private sector here? Is this more privatization? Don't you 
think maybe that the government should be mandating that?
    Do we have, currently, any modern cell-based manufacturing 
capability or any U.S.-owned old-fashioned egg-based capability 
in the United States of America for producing vaccines?
    Dr. Agwunobi. Sir, we definitely have a need to improve our 
capacity.
    Mr. DeFazio. Right. So we don't have any U.S. based. The 
two we have are foreign-owned, and they are pretty obsolescent, 
100-year-old technology, but they sort of work. We haven't been 
able to meet the annual flu needs.
    Dr. Agwunubi. Sir, our plan fixes all of those--
    Mr. DeFazio. It fixes them in 3 to 5 years, not 3 years.
    Dr. Agwunubi. In 3 to 5 years--
    Mr. DeFazio. Right. Dependent upon appropriations and the 
good will of--do you have a commitment from a pharmaceutical 
manufacturer to build one of those plants today, in writing?
    Dr. Agwunobi. Sir, our contracts with these pharmaceutical 
manufacturers contemplates the journey to that point.
    Mr. DeFazio. We are going to journey to a point. I mean, so 
it just kind of--I don't want to give false assurance to the 
American people. I mean, I think Secretary Leavitt, when he 
came to Oregon, said you are on your own and was a little more 
accurate. You painted a picture we are stockpiling. How about--
let us talk about, okay, antivirals, how big is the stockpile?
    Dr. Agwunobi. In terms of an antiviral?
    Mr. DeFazio. Yes.
    Dr. Agwunobi. We have 5.1 million courses, but we also have 
a little less than 5 million courses of ramantidine. We also 
have some stockpiles of Tamiflu liquid for infants. We also 
have stockpiles--
    Mr. DeFazio. Tell us how quickly we will build that up. 
Again, we are going to be dependent on the private sector, 
foreign manufacturers. As I understand it, we are kind of last 
in line, because we didn't order early.
    Dr. Agwunobi. Well, sir, our goal is to stockpile 50 
million regimens of antivirals.
    Mr. DeFazio. In how long?
    Dr. Agwunobi. Over the same period of time.
    Mr. Dicks. Would the gentleman yield for just one point? I 
am having a hard time understanding what happens if the 
pandemic is 6 months from now.
    Mr. DeFazio. In 5 years, we will build a plant that could 
make the vaccine to take care of it.
    Mr. Dicks. Thank you.
    Mr. DeFazio. My time has expired. I will wait for the next 
round.
    Mr. Linder. Chairman King is recognized for 5 minutes.
    Chairman King. Thank you, Chairman Linder.
    First of all, I regret the fact that I was in a prior 
meeting and wasn't here to begin.
    I want to thank all of you for testimony and all of you for 
your efforts and all of you for the contributions you make.
    I also want to thank Chairman Linder for the initiative he 
has shown on this issue and for the concern he has demonstrated 
on this issue. I want to thank him very much.
    I am not going to make the mistake too many members make of 
coming in after the opening statements have been made and other 
questions have been asked and repeat the same questions.
    I would like to ask Secretary Verga a few questions though. 
Is the Department of Defense monitoring troops overseas, 
especially in Asia and Africa, for any signs of avian flu 
infection?
    Mr. Verga. Yes, sir. We have a very aggressive 
biosurveillance program to include some Department of Defense-
operated laboratories overseas to monitor. We have an 
aggressive force health protection program designed to be able 
to very early detect any possible infection that might come 
about.
    Chairman King. I don't know if this was covered before I 
came here, but in the event we have to use the military for a 
pandemic response in this country, do you feel we have 
sufficient forces to do that? Are you confident that the 
military could make the appropriate response to a pandemic 
episode here in this country?
    Mr. Verga. Yes, sir, I am very confident. We are in the 
final stages of our implementation plan for a pandemic 
influenza. It is done, written, staffed and is merely awaiting 
signature to cover the 116 of the tasks out of the national 
plan that we are required to do. Coincidentally, as we speak, 
there is an exercise ongoing that is addressing pandemic 
influenza as one of the items that we have to do, and we are 
going through the, in DOD speak, the force sourcing of the 
forces that might have to be used in that. I am confident that 
we will do what we have to be able to do.
    Chairman King. Thank you, Mr. Chairman. I will yield back 
my time to you, Mr. Rogers, Mr. Simmons, if you want to.
    Mr. Linder. Dr. Christensen is recognized for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    At the outset, I want to say that I share the concern of my 
colleague, Mr. DeFazio, that even a national strategy says, 
tells States that the assistance that they will receive will be 
limited, especially in light of the fact that the funding isn't 
there to help them prepare.
    I want to say at the outset to say to the panelists, what I 
say to my fellow committee members, is that in the plan, I am 
still not satisfied, and my fellow delegates are not satisfied 
the territories are not explicitly listed in the plan.
    We are glad, as a State, that we get the same status, but 
we do run the risk of being overlooked. For example, when we 
said that Dr. Runge had 49 States had summits--
    Dr. Runge. That includes territories.
    Mrs. Christensen. Exactly. But if I didn't know, it wasn't 
my territory, I would have asked you, well, what about the 
territories? I think it is important that while we don't want 
to lose anything, that some of the unique considerations of 
territories are included and are listed separately.
    To begin my questions, Assistant Secretary, Admiral, Dr. 
Agwunobi, I note, I think his name was Simmons, that was the 
Assistant Secretary for Emergency Preparedness and Response.
    Dr. Agwunobi. Simonson.
    Mrs. Christensen. I think he has left. Is there a new 
Assistant Secretary at the Department for Emergency 
Preparedness and Response?
    Dr. Agwunobi. There is currently an Acting Assistant 
Secretary, Gerry Parker. He was the deputy when Stuart Simonson 
was in that seat.
    Mrs. Christensen. Does he have a public health background?
    Dr. Agwunobi. Oh, extensive. He has worked for a number of 
years both within the military side and now on the civilian 
side on public health emergency preparedness. He is an expert.
    Mrs. Christensen. Dr. Runge, in your testimony, you said 
that the Secretary has someone in mind to head up the 
preparedness and response, to be the PFO in the case of a 
pandemic. Is that you?
    Dr. Runge. No, it is not.
    Mrs. Christensen. Doesn't that create some confusion over 
roles here?
    Dr. Runge. Not at all. Under the National Response Plan, 
the Secretary will appoint a PFO, which truly is not--this 
individual needs to have a large operational experience and 
capacity. Certainly the public health and medical knowledge 
will be at his or her elbow when we need to draw upon it.
    Mrs. Christensen. We are not talking about any kind of a 
counterterrorism attack. We are not talking about any nuclear 
incident or a hurricane. We are talking about a health event.
    Dr. Runge. This is much bigger than a health event, ma'am. 
We anticipate--by the way, HHS is responsible for that piece of 
it. There is the distinct possibility that as we see large 
numbers of people ill, demanding health care, demanding 
medications that they may not have access to, and all the 
things that have been articulated in the room today, we want to 
make sure that Americans are safe and secure, that the supply 
chain for food and goods and chlorine to the water treatment 
plans and so forth, that there are sufficient resources in the 
Nation's critical infrastructures to maintain them in the 
event--
    Mrs. Christensen. What is your role in the case of a 
pandemic. Is it clear what the Department's role, the HHS's 
role in the medical arena is?
    Dr. Runge. Yes, it is very clear to us. I will be the 
Secretary's principal advisor on medical issues, which is a 
distinct role from the principal Federal official, who will be 
guiding the operational command of the incident coordination.
    Dr. Agwunobi. I would concur on that. The Department of 
Homeland Security and Department of Health and Human Services, 
I think we are very clear on what our relative roles would be 
in response to a pandemic.
    Mrs. Christensen. Dr. Agwunobi, the plan for vaccination 
presumes--well, even though it may be a few years hence--that 
the virus would be contained and slowed enough, for enough time 
that that estimated 6 months time for the development of a 
vaccine, in every case of pandemic flu it the local public 
health infrastructure, the health system in place, that first 
line of defense, which will buy us the time to get us to be 
maybe that 6 months while protecting lives.
    Do you really think that $644 million or somewhere in that 
vicinity can prepare this country with reportedly faulty public 
health infrastructure--hospitals have no surge capacity in 
general, emergency rooms are over capacity, lab capacities 
inadequate, we have a lower number of workers in health and 
local health, State and public health than we did in 1979.
    So given the fact that it is the local health system, the 
public health infrastructure, the private health infrastructure 
in communities that is going to be that first line of defense 
and maybe now for 3 to 5 years, is that enough money?
    Dr. Agwunobi. Since 2001, $6.7 billion has been invested in 
public health strengthening, strengthening the infrastructure 
of our public health communities across the Nation, designs to 
make them better able, better ready to respond to public health 
emergencies, and by all definitions a pandemic falls squarely 
into that. In addition to that, this $7.1 billion that has been 
requested, of which 3.8 has already been appropriated, I think 
adds to that investment in our Nation being prepared.
    We also have a number of other assets designed at the local 
level to help strengthen their ability, like Medical Reserve 
Corps and others. Ultimately I do believe that as we continue 
this ongoing investment, whether it be for bioterrorism 
preparedness, public health emergency preparedness, and these 
next few years of investing in pandemic influenza preparedness, 
that we will be a Nation ready at the local, State and at the 
Federal level.
    Mrs. Christensen. I am still concerned that despite that 
investment hospitals are still saying they just don't have the 
capacity.
    Thank you, Mr. Chairman.
    Mr. Linder. Does the gentleman from Connecticut wish to 
inquire?
    Mr. Simmons. I thank you, Mr. Chairman, for holding this 
hearing, which I think is tremendously important and timely, 
and I appreciate the testimony of the witnesses, even though I 
have not heard it but I have read it, and I thank you all for 
being here.
    I would like to focus--I have two questions; one on the 
prepared statement of Dr. John Clifford with regard to 
outbreaks of avian influenza in commercial bird flocks. A 
couple of years ago in the State of Connecticut a private 
company reported the outbreak of avian influenza in a 
population of up to 7 million birds and the Department of 
Agriculture in the State of Connecticut, working with the 
Federal Department of Agriculture, initiated a program not to 
depopulate 7 million birds but to vaccinate them, with the idea 
that vaccination could work to control the outbreak, which was 
very limited but nonetheless it was within this large 
commercial flock.
    That program was a complete success. The flocks continue in 
good health and the outbreak was contained and eventually 
eliminated. My understanding is the vaccinations were conducted 
through the food that was provided to the birds.
    The Federal Government through the Department of 
Agriculture does reimburse commercial activities for 
depopulated flocks and has the authority to reimburse for 
vaccination but never has. I wonder if a practical matter is 
that it isn't smart to focus on vaccination rather than 
depopulation as a strategy, but current funding does not 
support that strategy. Would you comment on that?
    Dr. Clifford. Yes, Congressman. I think there is a very 
important distinction we need to make here. The particular 
situation you were talking about in Connecticut was what we 
referred to as low path, low pathogenic avian influenza. That 
was one of the first times we used vaccine successfully. It had 
been tried in Europe and it was a success. And you can use 
those types of strategies dealing with low path avian 
influenza, not with high path AI. High path AI is going to kill 
80 to 90 percent of the birds and you would need to stop the 
virus from circulating, you need to go in and depopulate. The 
only time we would use vaccine in that type of situation is to 
try to build a firewall around that particular area of 
infection to prevent and slow the spread of that virus, so that 
is when vaccine would be used.
    In addition, we do not want to use wide scale vaccine in 
the U.S. poultry industry. Vaccine will not prevent the virus 
from circulating. You can still have virus present while it was 
successful in eliminating and it would also--it is not an 
approach that we think is wise with regards to wide scale use. 
Limited use, certain specific circumstances, and very 
controlled use.
    Mr. Simmons. Does low path lead to high path in some 
circumstances?
    Dr. Clifford. Low path AI can mutate and become high path 
AI, and that is why we actually, beginning in 2005, we have 
developed and actually started in 2004 with what we referred to 
as our low path AI program to heighten the level of 
surveillance activities both in the commercial sector as well 
as what we refer to as the live bird marketing system.
    We have had an H7N2 into low path AI virus that has been 
circulating in the live bird marketing system in the New 
England area for years and have been monitoring that actually 
since the late 80s. Recently, with the new program we put in 
place we have seen great reductions in the circulation of that 
virus in those bird markets.
    Mr. Simmons. Thank you for that response. I guess, again, I 
felt that the Department of Agriculture did a great job of 
monitoring the situation and saving the industry whereas 
depopulation essentially is very, very expensive and destroys 
the industry. And for those human-cost infections, depopulation 
accomplishes the task. People want to disrupt the economy, they 
want to disrupt the food supply, and depopulation certainly 
does that.
    My second question--I am out of time. I will wait for the 
next round.
    Thank you, Mr. Chairman.
    Mr. Linder. Does the gentleman from North Carolina wish to 
inquire?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me follow that up, Mr. Clifford. When you talk about 
depopulation, especially with flocks, the person who really 
gets burned is the grower. All he has is his time and effort. 
If you depopulate the whole thing, and they have a contract, 
they are still paying their revenues.
    Does the Department have funds to reimburse for the 
depopulation for the farmers or is that a direct appropriation 
from Congress?
    Dr. Clifford. No, sir. We have the authority for use for 
depopulation.
    Mr. Etheridge. I understand you have the authority for 
depopulation; my question was for reimbursement.
    Dr. Clifford. Yes, sir.
    Mr. Etheridge. At what rate?
    Dr. Clifford. For highly pathogenic avian influenza, it is 
at 100 percent rate.
    Mr. Etheridge. For the birds. That would go directly to the 
grower as well?
    Dr. Clifford. The split on that, we are trying to address 
that in some rulemaking, but obviously if you go back to the 
situation where we dealt with the low path AI in Virginia a few 
years ago, we did split that out with the growers as well. So 
we will need to work that with the poultry companies.
    Mr. Etheridge. I would encourage you to look at it because 
the company is in a far better position to absorb loss than the 
individual at the end of the line. They are the ones that are 
going to go broke. So I would hope you would follow up, and I 
look forward to hearing from you personally on that one.
    Mr. Simmons. Would the gentleman yield for 15 seconds?
    Mr. Etheridge. I will be happy to.
    Mr. Simmons. The depopulation is getting reimbursed. In our 
case the vaccination did not. So the company accrued about a 
$20 million bill to preserve and protect the flock.
    Mr. Etheridge. I recognize the company, but the grower is 
the one who stands to have the great loss. The companies will 
lose, but they have more to absorb.
    Let me go to Dr. Runge, and, Dr. Agwunobi, if would please 
answer this one because you have been talking about a number of 
the issues. Recently Secretary Leavitt has stressed that State 
and local government, schools and private businesses will bear 
much of the preparation and response burdens during the 
pandemic.
    My question is what role will the Federal Government expect 
schools to play in this crisis. Secondly, have any of you given 
any thought to what the trigger point will be for closing 
schools if you are going to play a role?
    While I am at it let me get the third one in so we can get 
it quickly. What kind of support would the Federal Government 
give to school districts to prepare for these roles? You are 
only talking about 50 some million students and a lot of 
personnel in a place where if you have an outbreak it is going 
to spread like that.
    Dr. Agwunobi. There are some obvious situations in which 
schools are going to have to close, and that would be those 
circumstances where--
    Mr. Etheridge. I understand that. My question is: Is there 
a plan in place, has it been distributed to the local schools 
and to the States?
    Dr. Agwunobi. Sir, we recognize that no two school 
districts are the same and we are working very closely with 
them.
    Mr. Etheridge. I don't want to keep butting in. I was a 
State superintendent of schools. Have you corresponded with the 
State superintendents and with the local independent school 
districts across America?
    Dr. Agwunobi. We have actively reached out to the State 
governments in each State urging them to pass on, and we are 
reaching out to schools in those State pandemic summits, they 
are all invited, school districts are invited to send their 
leadership to those pandemic summits in which the Secretary and 
experts from CDC and others sit and have usually an all day 
long event in which we dialogue with those very leaders that 
you described.
    Mr. Etheridge. So the superintendents are involved in every 
State?
    Dr. Agwunobi. In every State they are invited to these 
pandemic summits, and we have made available written guidance 
that schools can use, they can draw down from the website, 
www.pandemic.gov, that offer not just guidance in terms of 
universities and day cares but also specific guidance for K 
through 12 that school superintendents can use to build their 
plans. So the answer would be yes, sir.
    Mr. Etheridge. How about Homeland Security?
    Dr. Runge. We have been attending these State summits with 
HHS, and the ones I have been to, 8 of the 49 myself, the 
schools are very well represented, not only the public school 
systems but also colleges and universities.
    Dr. Agwunobi. I find teachers and PTA are also showing up.
    Mr. Etheridge. Let me--I am about out of time but let me 
come back to the amount of money appropriated. I think it is 
woefully inadequate for what we are talking about when we could 
be facing this within 6 months, a year. We have no idea what it 
is and yet we have put so little funds out there to prepare the 
public. Would you not agree with that?
    Dr. Agwunobi. Sir, we invested, as I said, $6.7 billion 
since 2001. I would like to make the point that States haven't 
drawn down all that money. There is still about a billion 
dollars sitting, waiting on States to draw that money down so 
that they can prepare their public health infrastructure for a 
public health emergency. And that is before we began--
    Mr. Dicks. Would the gentlemen yield? Bob, would you just 
ask him are you talking about the problems with DHS grants, are 
you talking about some HHS grants for public health?
    Dr. Agwunobi. I am talking about public health dollars that 
went out to States through the CDC and HRSA, both agencies 
within the Department of Health and Human Services, a total of 
about $6.7 billion invested since 2001, of which $1 billion has 
yet to be drawn down.
    Mr. Etheridge. Mr. Chairman, would it be possible for us to 
get that--the States that haven't drawn theirs down? I think 
that would be helpful for this committee to know that.
    Mr. Linder. The Department will respond in writing. Thank 
you.
    Dr. Runge, how much time did you engage the private sector 
in the planning process? We have got major corporations with 
plants all over Asia. An event is going to be a serious problem 
for them to keep their plants open. How much are they engaged?
    Dr. Runge. Mr. Chairman, that is exceedingly important. 
Even as the President was unveiling the national strategy in 
November, our Critical Infrastructure Partnership Office was 
reaching out to the private sector. As you know, Mr. Chairman, 
80 percent or so of our critical infrastructures are owned by 
the private sector. Our office was going and actually having 
tabletops just to begin to acquaint them with the issue.
    I believe we have had 4 or 5 of those now among the 
critical infrastructures together and as recently as 2 weeks 
ago I was in Boston speaking with leaders of major health care 
companies who were very, very engaged in this topic, not only 
as to what they can do but also how they need to protect their 
employees and keep the country moving in the event of a 
pandemic. This is exceedingly important and we have been doing 
that outreach.
    Mr. Linder. Dr. Clifford, would you like to comment on 
that?
    Dr. Clifford. I am sorry, can you repeat that question?
    Mr. Linder. How much are you and the Department of 
Agriculture reaching out to the private sector for not only 
surveillance, because they have workforces that are affected, 
but responses?
    Dr. Clifford. We have actually been outreaching a lot with 
the industry side of the sector. Actually, just last month or 
at the beginning of this month we just held a meeting in 
Atlanta with the industry and the States as well as the Federal 
with regards to our response plan and preparedness.
    Mr. Linder. Dr. Agwunobi, how much are you including the 
CDC's BioSense program, which is in development? How much of 
that is being included in planning?
    Dr. Agwunobi. All of the assets of the Department of Health 
and Human Services, as you can well imagine, are an integral 
part of any response to a public health emergency, especially 
one of the size and scope of a pandemic.
    BioSense offers us a great opportunity in the future as it 
develops out and strengthens the ability to not only identify 
perhaps the onset of a public health event of major 
significance but also, for example, it offers a great 
opportunity to manage resources because it gives us a sense of 
how the pandemic is affecting a community and how that 
community is responding to the pandemic. So it is a part of our 
plan, an integral part of our plan.
    Mr. Linder. Does the gentleman from Washington wish to 
inquire again?
    Mr. Dicks. Yes, I would like to.
    Who is in charge of assuring that States and localities 
create the surge capacity for treating people who become ill 
during a pandemic?
    Dr. Agwunobi. That would be the Department of Health and 
Human Services working in concert with State governments.
    Mr. Dicks. We have been informed that emergency rooms and 
trauma centers are closing all across the country because they 
are considered a money loser by many hospital administrators. 
What is the current state of readiness of our emergency 
departments?
    Dr. Agwunobi. Sir, I read the same reports you do and we 
recognize that our emergency departments across the Nation 
continue to face significant challenges, in some communities 
more than others. We continue to work with them across the 
Nation to try and help them as they go through these 
transitions.
    Mr. Dicks. But in light of the fact we could be facing a 
pandemic flu outbreak, don't you think people would--I mean 
they would turn to emergency rooms, so if they are being closed 
down, this is not good? And should we be doing more to help 
them financially as part of our preparation for this--to be 
prepared for this possible outbreak?
    Dr. Agwunobi. As we work with State and local leadership we 
are urging them to do an inventory of their current capacity to 
meet the needs that might appear in a pandemic, not just the 
emergency room care but potentially inpatient care and 
outpatient care, and we are providing them with guidance on 
what they might expect in a pandemic and offering them, as I 
said, this significant investment in their infrastructure.
    Mr. Dicks. Let me talk about one thing. Time is quite 
limited here. Congress has appropriated 350 million for 
assistance to the States and localities for pandemic 
preparedness. The goal of this program is to assure that all 
localities meet a minimum level of preparedness.
    Are you going to create a single course set of performance 
standards that all jurisdictions must achieve with these funds?
    Dr. Agwunobi. Yes. The guidance that is attached to these 
funds has very specific expectations of what a State will 
commit to achieving in its plan and across its community, not 
just a written plan but an exercise plan that proves those 
achievements have occurred.
    Mr. Dicks. Given that one of the most critical aspects of 
preparedness will be the ability of local jurisdictions to 
rapidly distribute a pandemic vaccine, will the Department 
encourage States to organize mass vaccination exercises during 
the next flu season to test their distribution plans?
    Dr. Agwunobi. I won't tie the timeline to the flu season. I 
will tie it to the guidance issued associated with the 350 you 
mentioned. It has specific timelines around which we expect 
States will have developed distribution plans not just for 
vaccines but anti-virals and other countermeasures. It has very 
specific timelines on when we expect those achievements to have 
occurred, including, as you state, exercises.
    Mr. Dicks. While significant funds are being invested in 
preparedness, when a pandemic hits, the cost for Federal, State 
and local governments will be significantly higher. Has anyone 
estimated what the cost would be to implement its pandemic 
preparedness plans?
    Dr. Agwunobi. When you say its, you mean--
    Mr. Dicks. For example, is there an estimate for what the 
actually pandemic flu vaccine will cost once it is available? 
Has the Department asked States and localities to estimate the 
cost of responding to the pandemic as opposed to planning for 
one? In other words, it is one thing to plan, it is another 
thing to then have to respond, and who is going to pay that 
bill?
    Dr. Agwunobi. As we work with States we recognize each of 
them makes decisions in their plan. They have a number of 
options on how they might, for example, care for overflow 
patients. Each State, each community makes a decision based on 
what its specific plan says.
    We haven't rolled up the costs of the hundreds or thousands 
of plans that might developed at the local, State and Federal 
level into one bottom line, but I would imagine that each State 
and each community as they develop their plans, that they 
contemplate where they might need increased costs or where they 
might use existing funds to develop our capacity use within 
those plans.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Linder. Does the gentleman from Alabama wish to 
question further?
    Mr. Rogers. Thank you, Mr. Chairman. Before I go to my 
questions, I want to follow up on Mr. Etheridge's request. I 
would like to be included in being given a list of the State 
boards of education that have not drawn down their funds.
    Dr. Agwunobi. Not boards of education, the State 
government; actually, the public health.
    Mr. Rogers. I would like to know if Alabama is on that 
list.
    Mr. Clifford, also the point about the poultry growers, I 
would look to be given the same information that you are going 
to provide him about grower reimbursement, because he is 
absolutely right, the growers are the least able to absorb that 
loss.
    Dr. Runge, where I left off before, talking about rural 
hospitals in particular, I have in my district a couple of 
large hospitals that have an average day census of 3 to 500 and 
I would expect them to be sophisticated enough to be included 
in any information systems. But I have about a half a dozen who 
keep an average day census of 10 to 15 and one that keeps 3. 
These folks are going to need their hands held in making sure 
they are prepared and I am interested in knowing along what 
timeline you think you will be able to reach down to these 
smaller rural hospitals to make sure they are as prepared as 
they can be in the event you are dealing with a pandemic.
    Dr. Runge. Is that question to me?
    Mr. Rogers. Yes.
    Dr. Runge. I will go back to this issue, and quite frankly 
I don't want you to get the mistaken impression we think 
everything is going to be just fine out there if they have a 
plan. We expect if the pandemic hits us and if it maintains a 
virulence to anything like we are seeing in the current virus 
or what occurred during 1918, there will be unmet needs in 
every size hospital, whether it is an emergency department with 
60 beds or whether it is one with 2 beds as the ones you are 
describing.
    We have encouraged the Hospital Association, the American 
Hospital Association, as well as State entities to make sure 
that all of their members have a contingency plan on what 
happens if you have eight ventilators in a hospital and the 
ninth patient arrives who needs artificial ventilation.
    Mr. Rogers. So you are waiting for them to reach out to 
you?
    Dr. Runge. No. Basically, this is an educational process we 
have entered into with States, with the private sector. Much of 
this health care is provided not by public health but also the 
private medical sector.
    This is not something where we are coming in with a magic 
pill that can cure this. We want to make sure that every 
hospital, every ambulance service, every clinic has taken into 
account what could happen if it loses 40 percent of its 
workforce.
    Mr. Rogers. What I am interested in is if you develop a 
vaccine, if we see a pandemic coming and you are able to draw 
on the infrastructure to develop a vaccine, I want to know that 
there is a way that--because that is where people are going to 
go, to their local hospital to try to get a shot. I want to 
know that every hospital knows how they are supposed to draw 
down their proportioned amount of the vaccine.
    Before my time runs out, I want to turn to Mr. Clifford for 
a minute. Poultry is the number one industry in my State, and 
obviously in my district it is the largest. You talked a little 
while ago about your action plans and vaccines but also I heard 
you make reference to Mr. Simmons' question about vaccines, 
certain vaccines not being useful. I know that Auburn 
University has developed a vaccine that you can put in the egg 
and it prevents the chicken that is producing that egg from 
being susceptible to vaccines that are known at present.
    My question is: Are you all spending significant amounts of 
money or any money for continued R&D to make sure that when a 
bird flu arrives here that we are able to provide those kind of 
vaccines to prevent its spread, because we are going to be 
killing flocks?
    Dr. Clifford. Yes, sir. We already have on hand 40 million 
doses of avian influenza vaccine as well as purchasing an 
additional 70 million doses for our vaccine bank. Those are 
made up of four different subtypes of vaccine and we know that 
two of those subtypes are effective in assisting and helping 
protect the birds and spread of the virus for the highly 
contagious H5N1 that we are seeing.
    Mr. Rogers. Do you have additional R&D funds to continue to 
make sure we are on the cutting edge of being able to fight 
this?
    Dr. Clifford. Yes, sir. There are research dollars there 
for ARS, part of USDA, to continue research and development as 
well.
    Mr. Rogers. You talked about firewalls in the poultry 
industry a little while ago. I have been through the processing 
plants and I agree there are incredible firewalls, but when it 
comes to growers what kind of firewalls do you see there and in 
the feed lots?
    Dr. Clifford. Actually, good biosecurity is the key to the 
prevention of spread of this disease. So if you have the 
disease introduced in an area you have got to quickly contain 
it and have good biosecurity, and that means in these grower 
facilities, or no matter what type of facility, people cannot 
have free access. They have got to clean and disinfect their 
footwear and outerwear. They should not have ongoing contact 
with birds outside of that. So there are a lot of things that 
the poultry industry is doing as well to beef up, as well as 
have very good sound biosecurity to protect that investment out 
there.
    Mr. Rogers. Thank you. I see my time is up.
    Mr. Linder. Does the gentleman from Oregon wish to inquire 
further?
    Mr. DeFazio. On the issue of Tamiflu, Dr. Agwunobi, it adds 
apparently some potential utility as a prophylactic, is that 
correct?
    Dr. Agwunobi. Yes, sir.
    Mr. DeFazio. It is also used, as I understand, in 
treatment, it has been in the bird flu cases, massive doses 
have been given and it is not quite clear what role it played 
there. Is that correct?
    Dr. Agwunobi. That is correct, sir.
    Mr. DeFazio. Seems like it would be prudent to have on hand 
a significant amount, is that correct?
    Dr. Agwunobi. And a diversity of anti-virals, number of 
different anti-virals.
    Mr. DeFazio. At the moment we have only 4 or 5 million 
courses, which if you were treating people, would maybe treat a 
couple million. I guess you give a double dose.
    Dr. Agwunobi. Our goal is to maintain a stockpile of 25 
percent of the population. 26 million doses by the end of this 
year, sir.
    Mr. DeFazio. 25 percent would be--
    Mr. Linder. Would the gentleman yield on that point? What 
is the shelf life of those vaccines?
    Mr. DeFazio. This is the anti-viral.
    Mr. Linder. Could you tell us about the shelf life?
    Dr. Agwunobi. Different anti-virals have different shelf 
lives. I believe Tamiflu is 5 years, but there are a number of 
others and they may have different shelf lives. If I might get 
back to you on the record on each of the different anti-virals.
    Mr. DeFazio. Thank you, Mr. Chairman.
    So what is the major constraint; is it production 
capability?
    Dr. Agwunobi. Constraints in regards to? One is 
appropriations, obviously.
    Mr. DeFazio. So there isn't money; we don't have enough 
money, right?
    Dr. Agwunobi. Our plan is to purchase it over the course of 
the 3 years, and by the end of this year--
    Mr. DeFazio. If we had more money could we purchase it more 
quickly? Is the capability there to produce it more quickly?
    Dr. Agwunobi. I am not sure about the companies in terms of 
whether they can deliver it all today or tomorrow.
    Mr. DeFazio. I am thinking back to Cipro. Worldwide panic, 
anthrax, a few countries said hey, we don't care about the WTO 
and the patent rights, we are just going to produce it. After a 
while the company said okay, all right, we will license the 
production. I am wondering if we are looking at a similar thing 
here.
    Dr. Agwunobi. I think appropriations is the key limitation 
at the moment. We are getting everything we can buy. 26 million 
courses by the end of this year, our goal being to provide for 
25 percent of the population; 81 million courses.
    Mr. DeFazio. That is good. How about something very simple 
like surgical masks? My understanding is that the French have 
200 million on order, we have 100 million on order and they 
have one-fifth our population and we recently saw guidelines 
you shouldn't reuse them. A hundred million isn't going to go 
too far. I assume that has a prophylactic effect, both putting 
it on the affected person or healthy wearing it to avoid the 
infection.
    Dr. Agwunobi. I am not sure what the French are 
stockpiling.
    Mr. DeFazio. Let's go to are surgical masks useful?
    Dr. Agwunobi. Some are.
    Mr. DeFazio. M-95s.
    Dr. Agwunobi. As opposed to surgical masks. Surgical masks 
can be useful in certain circumstances. There isn't an awful 
lot of science on whether or not what their use--how you might 
optimally use them in a pandemic because we don't have that 
science available.
    Mr. DeFazio. Would it be prudent to have perhaps a few for 
every American? Looking toward a million as opposed to hundred 
million.
    Dr. Agwunobi. A pandemic lasts anywhere from 12 to 16 
months with waves that might be 6 weeks long sweeping through 
communities. I think it would be impractical to have every 
citizen maintain a stack of 5 M-95 mask. These require 
specialized fitting techniques.
    Mr. DeFazio. You can buy them on line for less than a buck 
each or buy the ones that you can breathe more easily through 
for a little bit more, over $2.30 each. I realize you may be 
concerned about how I fit myself or other people but I think 
the American people might want--if they have to go to work, if 
they are running a nuclear plant and make sure they are there, 
they would want some protection in addition to the hand washing 
and the other things. Don't you think it would be prudent to 
have masks?
    Dr. Agwunobi. We are not sure that science supports 
surgical mask use by the general population.
    Mr. DeFazio. We should forget about them. Tell people to go 
out and breathe, right? Don't put them on.
    Dr. Agwunobi. We have the tried and true public health 
interventions.
    Mr. DeFazio. I sit next to people on airplanes. My doctor 
wears a mask on the airplane. He is recommending I should too 
because he is tired of people getting sick on the plane, people 
snorting on you. It would be kind of good to have some 
protection at that point, wouldn't it?
    Dr. Agwunobi. The question is does the mask protect them at 
all.
    Mr. DeFazio. My doctor thinks it does. I guess you don't.
    Just back to the--this is a pretty basic thing. I hear over 
here HHS is in charge, it is an incidence of national 
significance--I mean DHS. Over here, HHS is in charge, it is a 
health emergency. I am just concerned that we saw this kind of 
interplay and problem with Katrina and FEMA within DHS and the 
gentleman wanting to call the White House. I am concerned here. 
Have you guys really worked this all out?
    Dr. Agwunobi. Yes, sir.
    Mr. DeFazio. How is it going to work? Who are you in charge 
of and what are you in charge of?
    Dr. Agwunobi. In a pandemic I think it is critical that we 
restate the fact it is not just about health and medical. They 
are clear, we all know what they are, the need for surge 
capacity and the numbers of individuals who might be ill. But 
in a pandemic there is so much more; it is about maintaining 
our society, our businesses, it is about educating our 
children, conducting our lives through the course of 18 months.
    The Department of Health and Human Services is very clearly 
responsible for the public health, the health and the medical 
aspects of the response to a pandemic, while our colleagues Dr. 
Runge and others in the Department of Homeland Security will 
handle the maintaining of society.
    Mr. DeFazio. Civil order, logistics, National Guard.
    Dr. Agwunobi. I will let my colleague go into those 
details.
    Mr. DeFazio. Is that correct?
    Dr. Runge. Particularly the maintenance of critical 
infrastructures of maintaining of civil order, of coordinating 
the various Federal responses to this that are needed by many, 
many departments, not just the two of ours.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman. My time 
has expired.
    Mr. Linder. The gentleman from Connecticut is recognized.
    Mr. Simmons. Thank you, Mr. Chairman.
    For any members of the panels, we have talked a lot about 
vaccines and vaccinations, and the testimony shows that there 
are plans to stockpile vaccines. Vaccines are usually 
administered with needles, I believe. How is our stockpile of 
needles?
    Dr. Agwunobi. We are stockpiling, in addition to 
countermeasures, anti-virals and vaccines, the resources needed 
to administer them, including gloves, swabs, syringes and 
needles. Clearly that is an important part. We recognize that 
is important.
    Mr. Simmons. The reason I ask is because a needle 
manufacturer in my State, not my district but in my State, has 
manufactured needles for vaccinations for the civilian 
population of France, but the orders from the United States 
Government have been a fraction of that amount, and so that is 
why I raise the issue.
    Dr. Agwunobi. We currently are stockpiling vaccine, H5N1, 
for example, in bulk. It needs to go through certain final 
tests before we package it into smaller vials and therefore 
acquire the syringes and the needles necessary to administer 
it.
    Our stockpile, however, today, where it does contain 
countermeasures that require needles and syringes, those 
needles and syringes alongside these push packs that are in the 
strategic national stockpile contain all that is necessary to 
get the countermeasure into the arm of the citizen.
    Mr. Simmons. Thank you very much. My second question is to 
Secretary Verga. Thank you for your service to your country. 
Welcome home. And thank you for your continued service in this 
capacity.
    You mention in your testimony on page 6 that one of the 
critical tasks identified by the Department of Defense is to 
provide surge medical capability to assist civilian 
authorities. I assume that would be through military hospitals, 
military personnel. In identifying those surge capabilities do 
you reach out to and include the facilities of the Veterans 
Administration?
    Mr. Verga. We in DOD don't but the Veterans Administration 
is part of what is called the National Disaster Medical System, 
of which DOD is a participant along with the Public Health 
Service, and that is also included. So the Veterans 
Administration is included.
    Mr. Simmons. How would you evaluate the cooperation of the 
Veterans Administration with you as you engage in this reaching 
out?
    Mr. Verga. Very good. My experience in working with the 
Veterans Administration on all sorts of emergency planning 
aspects, not just pandemic influenza but the medical aspects of 
any emergency has been very good.
    Mr. Simmons. Over the last year and a half or 2 years the 
VA has implemented the CARES program, which is a program to 
realign VA facilities. There has been a focus on community-
based outpatient clinics and less focus on beds in traditional 
hospital environments.
    Has any effort been made to identify those beds for 
purposes of surge capability?
    Mr. Verga. Sir, I am just not familiar with that. I would 
be happy to go back and try to get you an answer. I just don't 
know.

    Mr. Simmons. Over the last year and a half or 2 years, the VA has 
implemented the CARES program, which is a program to realign VA 
facilities. There has been a focus on community-based outpatient 
clinics and less focus on beds in traditional hospital environments. 
Has any effort been made to identify those beds for purposes of surge 
capability?
    Mr. Vega. CARES (Capital Asset Realignment for Enhanced Services) 
plans are developed by individual Veterans Affairs Medical Centers and 
Veteran's Integrated Service Networks (VISNs) and use of surge capacity 
is one of the factors considered as part of the overall process for 
developing the CARES plan.
    For example, during the response to Hurricane Katrina, the Veterans 
Administration established and staffed 2 Federal Medical Shelters 
provided by the Department of Health and Human Services for housing 
evacuees from both Hurricanes Rita and Katrina at the Waco and Marlin 
VA Medical Centers. These vacant buildings were mothballed under CARES 
and were able to be reactivated.
    Also during the response to Hurricane Katrina, the Veterans 
Administration developed an inventory of vacant spaces created as a 
result of CARES or other reasons that could be activated with some work 
to be used for surge capacity for shelters as well as beds.

    Mr. Simmons. Thank you, Mr. Chairman. I yield back.
    Mr. Linder. Dr. Christensen, do you wish to inquire 
further?
    Mrs. Christensen. Thank you, Mr. Chairman. I would like to 
ask Dr. Agwunobi and perhaps Dr. Runge also to respond. We 
spent a lot of time in the committee on BioShield and 
authorized a great deal of funds to spur the development of 
countermeasures, and I am not really seeing this project being 
utilized to its fullest extent. But I have also introduced in 
this Congress and the one before the Rapid Cures Act. This bill 
would fund basic research on shortening the time, as we call 
it, from bug to drug, including vaccines.
    Are we focusing enough on that particular area, shortening 
that time, since we can't predict even how this particular 
virus will look like if and when it begins to be transmitted 
from human to human, and do you think the Department has enough 
authority to do what is needed or does it require more like our 
legislation would provide?
    Dr. Agwunobi. The $1 billion that was recently announced as 
being invested in five companies to develop and further their 
ability to produce cell-based vaccine technology, one of its 
ultimate goals is to try and shorten that process. We have five 
companies from around the world. The commitment is to build the 
technology, develop plans--
    Mrs. Christensen. Just focusing on one cell right now.
    Dr. Agwunobi. Our strategy also involves investing in other 
technologies, not just about diversifying the number of ways we 
can get to a vaccine, it is about trying to find and improve 
the speed it will take for us to get there.
    Mrs. Christensen. You agree that it is really--that is 
where we need to be focusing. BioShield will take us from--if 
you have a countermeasure to manufacturing in large amounts, 
but we can't even get to shortening the time to get there. We 
don't have time. Six months is not a time that is available to 
us right now.
    So you agree that we really need to put a lot more focus on 
shortening that.
    Dr. Agwunobi. The process isn't just about industry though. 
If you think about it, it is about identifying the virus, 
getting a sample, bringing it into the system, studying that 
sample, developing a pilot vaccine, getting that into the 
industry, getting it approved and tested so we know it is safe 
for human beings.
    So there is some process that has to go into this, but we 
have to get that as short as we can. We are trying to advance 
late stage R&D, and I think in this current budget request 
there is a request for an additional 160 million to find ways 
to shorten the process.
    Mrs. Christensen. I would ask this of all of the panelists. 
In studying the economic impacts of SARS and other past 
pandemics, economists have said that the most important factor 
attributing to the losses suffered were, quote, the behavior of 
consumers and investors. We will also depend on the citizenry 
to follow instructions now and should we have a pandemic.
    The IOM did a survey of regular citizens and whether they 
would be likely to follow instructions; in this case it was a 
terrorist attack. I think it was up to two-thirds said no. 
Another IOM report on what we have learned from SARS says that 
research designed to identify why societies respond 
dramatically and irrationally to certain types of public health 
threats might help communicators develop messages and 
positively influence the public's behavior. This is really 
important. How much research is being done on that?
    Dr. Agwunobi. I can't give you a measure of how much 
research is being done on this subject because I don't see into 
every university, but I do know social scientists and risk 
communicators recognize this is an important part of the 
challenge.
    In the Department of Health we are investing heavily into 
trying to not only prepare ourselves and to work with our 
Federal agencies but urging State and local entities as well, 
the people who will be first on the scene, first on the stage, 
so to speak, to take the time to learn about what it takes to 
accurately and efficiently develop risk communication 
strategies and to develop--deliver those messages.
    I think when all is said and done it is going to be about 
educating, sharing with the public the challenge, and making 
sure that on that day the leaders that do represent what we are 
doing and why we are doing it and what we need the public to 
do, making sure those leaders are the most trusted leaders for 
that particular community, meaning local leadership, will be 
key.
    Mrs. Christensen. Dr. Runge, did you want to answer either 
one of those questions?
    Dr. Runge. I would add to what Dr. Agwunobi just said. Dr. 
Christensen, I am sure you are aware more than most people in 
this room how difficult it is to communicate a public health 
message and have it internalized. HHS, we are working on 
messages, message mapping, actually, since last August or 
September on this subject and they clearly have a way forward 
with doing this. Much of this information is on 
pandemicflu.gov.
    There is no question we need to do more in communicating 
with our citizens as to what the real threats are. There is no 
prevention for irrational behavior better than good education.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Linder. The gentleman from North Carolina, do you wish 
to inquire further?
    Mr. Etheridge. I do. Thank you, Mr. Chairman.
    Dr. Agwunobi, a few minutes ago you said there was over a 
billion dollars that had not been drawn down.
    Dr. Agwunobi. Approximately, sir.
    Mr. Etheridge. Approximately. But here you are talking 
about HRSA and CDC grants because only 350 million has been 
appropriated for pandemic flu. Can you be more specific about 
what funding stream you are talking about?
    Dr. Agwunobi. If I may, let me clarify. Since 2001 the 
Federal Government has been investing in State and local public 
health preparedness, getting the public health infrastructure 
to the point that it can respond to public health emergencies, 
all hazard-type emergencies. That funding has been about $6.7 
billion since 2001, of which approximately a billion dollars 
has yet to be drawn down by the States.
    In actual fact, in this latest budget request that the 
administration has brought forward, we have an additional $1.3 
billion that we propose to invest in public health 
preparedness, including surge capacity in hospitals, public 
health response to emergencies. This is before the investment 
in pandemic influenza preparedness, the $7.1 billion, of which 
350 is focused on exercising and the development of plans such 
as distribution plans, the spreading of plans down into 
communities.
    Mr. Etheridge. Part of the recognition was that the public 
health infrastructure across this country was in horrible shape 
was a reason a lot of this money was put in place; I think that 
is correct, is it not?
    Dr. Agwunobi. I recognize that that was probably one of the 
reasons Congress decided to invest in the public health 
infrastructure of our Nation.
    Mr. Etheridge. Yes. Can you also tell us how much of the 
350 million allocated to the States has been drawn down thus 
far?
    Dr. Agwunobi. We have actually distributed a hundred 
million already. I am not sure it has been actually spent. They 
are working on it. The remaining 250 million will come out 
later, I think within the next few months, with detailed 
guidance on what we are expecting the plans and the exercises 
to do for each State, what we are expecting them to be left 
with when they are done.
    Mr. Etheridge. Any one of you or all can respond to this 
because this is a challenge we face when we talk about getting 
information to the public and them believing it. Two years ago 
when we had a shortage in the regular flu vaccine and the 
President had to go on TV and say well, we don't have enough so 
those of you who are healthy just don't take the flu shot, and 
here we are talking about a pandemic that is very serious, can 
have catastrophic affects if it happens.
    The point is how do we make the public believe us when we 
can't be prepared for the regular flu and we say to folks well, 
just don't take a shot, those of you that are healthy, do the 
best you can.
    Dr. Agwunobi. This conversation and the many others like it 
that are happening around the Nation, both at the State and 
locals level, are an essential part of that dialogue. We are 
one of the first generations this planet has ever seen that has 
the ability to stand before a pandemic occurs in preparation 
for it, and it allows us the opportunity to have these 
discussions and to better educate the public as to the 
realities of pandemic preparedness and what it takes to be 
prepared.
    And so I think, as my colleague Dr. Runge just stated, a 
better educated public is a public far more likely to respond 
appropriately to the threat when it occurs.
    Dr. Runge. If I could also add to that, Congressman 
Etheridge. I have been talking a lot when we talk about flu 
preparation about collateral benefits, and I think that bolting 
together the public health community and the homeland security 
community in every State really puts us in a much better 
position to handle any sort of biological threat.
    In this case this vaccine technology is as much about 
seasonal flu as anything else. If we do this right, if we gear 
up our vaccine manufacturers, if we invest in industry, if we 
get cell-based or DNA-based vaccines into industrial production 
and have universal vaccine every year for seasonal flu, we will 
save 30,000 lives a year.
    To me, this is Y2K, that is fine; I had a brand new 
computer on my desk January 1st of 2000. What we are interested 
in here is the collateral benefits that this brings with us.
    Mr. Etheridge. Do I take that to be an indication there 
will be an adequate amount of flu vaccine this winter?
    Dr. Agwunobi. Sir, this notion of the ability to deliver 
300 million vaccines within 6 months is a strategy that 
inherently provides us with the guarantee down the road--
perhaps guarantee is a little strong given in--
    Mr. Etheridge. How far down the road? When people talk 
about the flu--
    Dr. Agwunobi. Our 3 to 5-year strategy is that we would 
have the capacity to not only address a pandemic but therefore 
to address the seasonal flu needs of our States.
    One last point on that. The issue is not just vaccine 
manufacturing and stockpiling, whether it be for seasonal or 
pandemic, it is also about distribution. Ours is a plan today, 
this work we are doing with States, that would improve that 
aspect of the seasonal flu dilemma as well.
    Mr. Etheridge. Thank you, Mr. Chairman. I want to say for 
the last couple of years it hasn't been distribution, it has 
been supply.
    Dr. Agwunobi. A little of both, perhaps.
    Mr. Linder. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I regret I couldn't be 
here for all the testimony. I have a very special interest 
here. My district, your Nation's Capitol, suffered the worst of 
the anthrax biological attack and frankly I have in mind what 
could happen; that Members could be here, the entire Federal 
presence, certainly the Cabinet agencies are here, and somehow 
the word could come that something had been spotted and 
everybody should stay where they are and I could understand 
that.
    I for one don't expect the government to have an instant 
answer here and indeed some people have speculated that this 
isn't going to happen at all and this is all much ado about 
nothing. They have gotten us all excited. I think you certainly 
have got to respond as if this were going to happen tomorrow.
    This is my concern, and perhaps I have not gotten the 
information, but as I understand it, particularly with the 
minimal number of doses of anti-viral and of vaccine, of 
Tamiflu and the like, some kind of decision is going to have to 
be made about who gets what, particularly in a district like 
this.
    Now I have always thought you always give it to the people 
who are the first responders, but that apparently is not 
necessarily the case here. I have been very confused by 
reports. One report said the notion that the old and the infirm 
and the disabled should get medicine first perhaps should not 
apply here, maybe that the young should get them.
    But my understanding is that there has been no 
recommendation from the government concerning that matter. Is 
that true? Have you nothing to advise us about who should get 
what in case the word comes that we do have the virus in some 
form in this country?
    Dr. Agwunobi. A prominent advisory panel, ACIP, has issued 
guidelines. They issued them last year, and they are actually 
written in the HHS plan that was originally--
    Ms. Norton. That is an advisory panel of who?
    Dr. Agwunobi. Advises the Centers for Disease Control, the 
Immunization Practice Advisory Council, and they provided 
guidance that was placed in the HHS plan back in October.
    One of the importance things that I think we need to talk 
about as we talk about this is the fact that seasonal flu, the 
seasonal flu virus, as you know, goes after the elderly and the 
frail, the infirm and the very young. They are its primary 
target in terms of its ability to hurt our citizens.
    The 1918 pandemic, on the other hand, that virus went after 
the young, strong, healthy individuals in our community.
    The point that I am trying to make is that until we see the 
pandemic virus itself, we won't know specifically which groups 
are most at risk. Now on top of that there is a growing body 
of--I don't know if it has a body of science, but there is 
recent modeling that seems to indicate that there might be a 
number of different strategies for addressing a pandemic.
    Ms. Norton. If I could just pause, the 1918--the notion 
that it went after the young and the healthy and the strong at 
a time when there were 12-hour working days and the people were 
out there associating with one another is one thing. People 
died earlier. I am not sure I would be instructed by that to in 
fact conclude that it did not go after the elderly.
    Dr. Agwunobi. We really don't have a lot of evidence as to 
where this is going to go. We know H5N1 today in the human 
beings it has affected seems to have a predilection for the 
young and for younger members of a family. The question is, is 
that inherent with the virus or something to do with the way 
they interact with lifestyle?
    The bottom line is there is a debate right now that we are 
encouraging around the Nation both in scientific circles and 
the community as we try to get a sense of what are the 
priorities that this community values, our Nation values, what 
is science really telling us about this.
    I will end by saying that the scientific bottom line on 
this isn't in yet.
    Ms. Norton. Understanding that, does the government, given 
the state of knowledge, have any advice for the States and 
localities who certainly don't have as much as you do about who 
should get the anti-viral first, who should get the vaccine 
first, even understanding you don't have anything like perfect 
knowledge? Are really people supposed to guess at the local 
level on their own? What is your advice to local jurisdictions?
    Dr. Agwunobi. Our health and human services plan contains 
guidance. We are urging each local jurisdiction as they develop 
their plan to start with that guidance but to have a 
conversation in their community.
    Ms. Norton. I am trying to find out what that guidance is 
in general terms.
    Dr. Agwunobi. I will be sure to on the record submit it to 
you. It is fairly detailed and it lays out a number of 
different categories, including first responders and the 
elderly and the like, and I will be sure to submit to you a 
copy.
    Ms. Norton. I wish you would because the press says you all 
have no recommendations of the kind you ordinarily give 
concerning who should get it. So everybody thinks that the 
people who have to administer to the sick should always get it.
    Dr. Agwunobi. That guidance is available on 
www.pandemicflu.gov. It is readily available. We are urging 
people not to stop there. We are urging people to have a 
conversation both at the science level and in the communities 
at what the priority should be.
    Ms. Norton. I take that to mean that you don't--if people 
are having a conversation, it is one thing to have a 
conversation and to say you may change these priorities, 
because they really may differ. It is another thing not to have 
any recommendations at all from the Federal Government.
    Mr. Linder. Will the gentlelady yield?
    Ms. Norton. Yes, sir.
    Mr. Linder. This week's Science Magazine on page 855: 
Priorities for distribution of influenza vaccine.
    We will get you a copy of that.
    Ms. Norton. Okay. All right. Well, I would think that one 
of the things we ought to do since some of the press is running 
that you don't have any recommendations, and I think you are 
doing the right thing to say to local jurisdictions make sure 
you have your own plan. Really, given the limited amount of 
anti-viral vaccine that is there, we really do need to tell 
people in advance that while your local jurisdiction may 
differ, and here my colleague is just giving me something here 
that says health care workers with direct patient contact and 
so forth, so we don't have people calling our offices to say 
how come I am not getting it, I am pregnant. If they know the 
Federal Government has advised this or it can be change in your 
local jurisdiction, then at least people understand because 
they trust the Federal Government to somehow have looked at all 
the possibilities, all of the options to come to this 
conclusion.
    Mr. Dicks. They will call our offices, no matter what.
    Ms. Norton. I would like to minimize those in the District 
of Columbia at the very least. Thank you very much, Mr. 
Chairman.
    Mr. Linder. Thank you. I want to thank the witnesses for 
their testimony today and the members for their questions. 
Members may have additional questions, and we would ask you to 
respond to these in writing. The hearing record will be held 
open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:55 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
